<html>
<title> - GENERATION CLIMATE: YOUNG LEADERS URGE CLIMATE ACTION NOW</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





       GENERATION CLIMATE: YOUNG LEADERS URGE CLIMATE ACTION NOW

=======================================================================



                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2019

                               __________

                            Serial No. 116-2
                            
                            
                            
                            
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
   
   
                            ________
                         
               U.S. GOVERNMENT PUBLISHING OFFICE
                
36-812                 WASHINGTON: 2019 
   
   
   
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, Calfornia            MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado
                Ana Unruh Cohen, Majority Staff Director
                        climatecrisis.house.gov
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
  Opening Statement..............................................     1
  Prepared Statement.............................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
  Opening Statement..............................................     4
Hon. Suzanne Bonamici, a Representative in Congress from the 
  State of Oregon, and Member, Select Committee on the Climate 
  Crisis, prepared statement, submitted for the record by Ms. 
  Castor.........................................................     5

                               WITNESSES

Lindsay Cooper, Policy Analyst, Office of the Governor of 
  Louisiana, Office of Coastal Activities
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Aji Piper, Plaintiff, Juliana v. United States, Seattle, WA
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Chris J. Suggs, Student and Activist, Kinston, NC
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Melody Zhang, Climate Justice Campaign Coordinator, Sojourners, 
  Co-Chair, Young Evangelicals for Climate Action
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

                       SUBMISSIONS FOR THE RECORD

Letter from ND Resident, Tanner Hopfauf, submitted for the record 
  by Mr. Armstrong...............................................    50
Excerpt from Climate Change 2013: The Physical Science Basis. 
  Contribution of Working Group I to the Fifth Assessment Report 
  of the Intergovernmental Panel on Climate Change, submitted for 
  the record by Mr. Palmer.......................................    63
Excerpt from the: Climate Science Special Report: Fourth National 
  Climate Assessment, Volume I, submitted for the record by Mr. 
  Palmer.........................................................    66
Statement of Mr. Benji Backer, President, American Conservation 
  Coalition (ACC), submitted for the record by Mr. Graves........    71
Climate Change 2013: The Physical Science Basis. Contribution of 
  Working Group I to the Fifth Assessment Report of the 
  Intergovernmental Panel on Climate Change, submitted for the 
  record by Mr. Huffman..........................................    70
Climate Science Special Report: Fourth National Climate 
  Assessment, Volume I, submitted for the record by Mr. Huffman..    70
  
  

 
       GENERATION CLIMATE: YOUNG LEADERS URGE CLIMATE ACTION NOW

                              ----------                              


                        THURSDAY, APRIL 4, 2019

                     U.S. House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:02 a.m., in Room 
2318, Rayburn House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Lujan, Bonamici, Brownley, 
Huffman, Levin, Casten, Neguse, Graves, Palmer, Carter, Miller, 
and Armstrong.
    Ms. Castor. The committee will come to order. Good morning. 
Welcome to the first committee hearing of the Select Committee 
on the Climate Crisis.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Today, we are going to hear from young Americans who are 
concerned about climate change and who are working to be part 
of the solution.
    I now recognize myself for 5 minutes to give an opening 
statement.
    This committee is explicitly charged with finding solutions 
to solve the climate crisis so that we can, quote, ``honor our 
responsibility to be good stewards of the planet for future 
generations.''
    So, today, we are starting with the Americans who are the 
most affected by the climate crisis: young people, who are 
growing up in it, who are going to be bear the cost and the 
burdens, and who will help us find opportunities and solutions.
    The last time global monthly temperatures were below 
average was in February of 1985. That means all of our 
witnesses and everyone who is 34 years or younger have grown up 
in a world that has been forever altered by climate change. In 
fact, this is the first Congress with Members who have grown up 
in the climate crisis. Six of our colleagues were born after 
that last below-average month.
    And the severity of the climate crisis this generation will 
have to deal with in their lifetimes depends on the actions 
that we take now. We have made some progress in recent years in 
cutting carbon pollution, but it has not been enough to stop 
the climate crisis. Communities across the country are feeling 
the impacts and bearing enormous cost, here and now.
    When I was in science class, back in the day, I didn't 
learn about how burning fossil fuels could change the climate, 
but students learn about that now. I am Gen X, but Millennials 
and Generation Z have grown up knowing we are in a climate 
crisis, and they are demanding that we address it.
    And I want to be clear: We need this young, vibrant, smart 
generation that is central to America's democracy. They work, 
they pay taxes, they vote. And, increasingly, they are doing 
everything they can to solve the climate crisis. In their 
schools, in their houses of worship, in their communities, they 
are taking action, and they are demanding that elected 
officials do the same.
    Solving the climate crisis offers opportunities for them. 
Some of the fastest-growing jobs in American are solar 
installers and wind turbine technicians, clean-energy 
engineers. These are no longer the jobs of the future; they are 
the jobs that this generation is doing to solve the climate 
crisis right now.
    This is a transformative generation. The March for Our 
Lives, the Peoples Climate Movement, the massive student 
climate strikes we saw all around the world--these are 
movements led by young people who are demanding climate justice 
for their generation and the generations of young people who 
will come after them.
    Seventy percent of young people in America say they worry 
about climate change. And based on the latest science from the 
administration's own National Climate Assessment and the 
Intergovernmental Panel on Climate Change, they have reason to 
worry. Seas are rising, snow pack is melting away, and, in many 
parts of the country, droughts are getting worse. Hot, humid 
heat waves are becoming more intense. We are faced with more 
days where people cannot safely work or play outside. And 
higher temperatures mean that other pollutants, like ground-
level ozone from car exhaust, will become even more damaging to 
our health.
    What is necessary to address the climate crisis is to stop 
carbon pollution from accumulating in the atmosphere. That 
requires action--urgent action, ambitious action. Every ton of 
carbon pollution we avoid, every new solar panel and wind 
turbine we bring on line, brings us one step closer to solving 
the climate change challenge.
    So I want all the young people who are with us here today 
and those who are watching at school and across the country to 
hear our promise. We can't afford to let you down or disappoint 
you.
    The time for rejecting climate science is over. The time 
for frustration and despair in the face of the climate crisis 
must end. This is a time for hope. This is a time for 
solutions. This is a time for all of us to come together--all 
generations, all political persuasions--for action. You all are 
rising to the occasion. We must rise with you.
    Finally, when I was preparing for this hearing, I was 
reminded that April 4, today, is the anniversary of the date in 
1968 when we lost one of our great spiritual and political 
leaders, Dr. Martin Luther King, Jr.
    Dr. King understood how powerful young people are when it 
comes to fighting for justice. In 1960, amid some of the most 
intense student activism of the civil rights movement, Dr. King 
told students at Spelman College, ``Keep moving, for it may 
well be that the greatest song has not yet been sung, the 
greatest book has not yet been written, the highest mountain 
has not been climbed. This is your challenge.''
    Today, solving the climate crisis is not just your 
challenge; it is the challenge that we all share. And this 
committee is dedicated to ensuring that Congress meets it with 
you.
    I now recognize the ranking member, the gentleman from 
Louisiana, Mr. Graves, for an opening statement.
    [The statement of Ms. Castor follows:]
                               __________

  Opening Statement (As Prepared for Delivery) of Rep. Kathy Castor, 
        Chair, U.S. House Select Committee on the Climate Crisis

    This is the first of many Select Committee hearings that is focused 
on solutions to the climate crisis. The need for solutions is 
increasingly urgent.
    The first major warning Congress received about the impending 
climate crisis was in 1988. But the Congress didn't act then. Today we 
know that oil companies' own scientists warned them about climate 
change, too. But instead of action, executives chose to tell Congress 
and the American people to ignore the scientists . . . and that we 
could afford to wait.
    Now the scientific consensus is too unequivocal to deny. What is 
clear from the science and what diverse voices, including young people 
across America, are telling us every day is that if Congress continues 
to delay, we lose. If Congress chooses the status quo, we lose.
    In fact, scientists have told us that the world needs to hit net-
zero carbon emissions by 2050 to avoid the worst consequences of the 
climate crisis. Getting there means cutting greenhouse gas pollution 45 
percent below 2010 levels by 2030.
    To get there--and to give ourselves a chance of avoiding the most 
catastrophic consequences of climate change--we have to cut carbon 
pollution smartly and soon. Taking action now gives us the best 
opportunity to transition to a clean energy economy efficiently and 
equitably.
    We still have time to solve the climate crisis because we've made 
some good choices: raising fuel economy standards, supporting wind and 
solar jobs, and investing in research and development that is coming to 
fruition now. America chose to lead the world in the Paris Climate 
Agreement, an agreement vital to the clean energy jobs and innovations 
underway across America now.
    But every time Congress and the administration choose delay, 
American families and business are asked to pay a higher price whether 
it's through climate catastrophes, extreme heat, dirtier air or higher 
electric bills.
    But as daunting as the climate crisis is, we can make choices and 
rise to the challenge.
    Many businesses and communities across America have been leading 
the way. More than 3 million Americans work in the clean energy 
economy. Existing energy efficiency standards will save consumers and 
businesses $2 trillion on utility bills by 2030. And fuel economy 
standards will save the average household another $2,800 a year at the 
pump. Still, there is no substitute for bold federal policy initiatives 
that meet the scale of the challenge we face.
    When we choose clear policies with clear goals, businesses 
innovate. They reduce costs. They put clean technology to work.
    Our witnesses today will help us examine and prioritize our policy 
choices. We're going to look at infrastructure, at deploying more wind 
and solar, at electrifying home heating and transportation, at cutting 
the most powerful climate pollutants and more.
    We're also going to look at funding research and development and 
establishing public-private partnerships that move technology from the 
lab to the market. We are going to look at capturing and storing carbon 
and pulling it out of the atmosphere.
    But we have to be clear: technological breakthroughs are not 
guaranteed. Choosing to invest in innovation doesn't give us an excuse 
to choose the status quo elsewhere.
    At the end of the day, technology is just a tool. It's people who 
will solve the climate crisis.
    The clean energy economy employs millions of people and we can 
choose policies that will make those jobs family-sustaining jobs.
    That includes elevating transition for workers in the fossil fuel 
industry. They deserve a clean energy economy that delivers for them, 
in their communities. We need good and patriotic policies for them, 
too.
    And we need climate solutions that work for people who are on the 
front lines of the climate crisis. That means putting an end to 
environmental racism and making sure the jobs at the heart of the clean 
energy economy are accessible to everyone.
    We have to pursue many options to meet our goals by 2030 and 2050. 
The one option we don't have any more is delay. We must choose climate 
action now.

    Mr. Graves. Thank you, Madam Chair. And thank you for 
holding this hearing today.
    And I want to thank all of you all for coming here today to 
share your perspective.
    I have the opportunity often to visit with students and go 
talk to college classes and high school and elementary school 
classes. And I remind them, and I remind our kids, that the 
decisions that we make here, just statistically, you all have 
to deal for with a longer period of time than we do, right? 
Just looking at life expectancy, it is simple numbers.
    And whenever Congress comes in and starts appropriating 
money and adds to our $22 trillion debt and proposing 
legislation that would just continue adding to that, it is a 
debt that is going to have to be paid at some point. It is one 
example of a long-term consequence that is going to adversely 
affect young folks, and it is going to disproportionately 
affect young folks.
    And so I want to commend every one of you for being here, 
for participating in your government, for recognizing the 
decisions that we make are going to affect you, and they are 
going to affect you for a longer period of time than they are 
going to affect people of my generation and older.
    You know, I agree with some of the statements that the 
chair made in regard to our obligation to be good stewards of 
this planet and protect the environment.
    Not a very well-known occupation of mine for a number of 
years is I was a mountaineering instructor. I was a wilderness 
instructor, educator. And there were years of my life where I 
spent more time living outside than I did inside. Doing that 
job, being in the outdoors, being in the incredible environment 
that we have here in the United States and other countries--
absolutely amazing and one of the most important parts of my 
life.
    When I came up and I started doing policy work up here in 
my young 20s, I was so aggravated that I didn't have the 
opportunity to be outside. I actually used to drive every 
weekend over to Mrs. Miller's State from April to October to go 
be a river guide so I could be outside again on weekends.
    Growing up in south Louisiana, we fish and have a very 
unique swamp and coastal area that--it is an environment unlike 
anywhere else I have ever seen, and it is absolutely amazing. 
In fact, U.S. Fish has called it one of the most productive 
ecosystems on the North American continent. It is an amazing 
place.
    We need to be good stewards and--let me be clear--we need 
to be better stewards of our environment, of our earth. And we 
need to ensure that the science that we gain, the technology 
that we gain, that we are able to apply it into logical 
solutions that actually make a difference.
    After spending a little bit of time up here doing some 
policy work, I learned a lot about what was going on in south 
Louisiana. I found out that we had lost about 2,000 square 
miles of our coast, that same coast that I made reference to 
earlier as one of the most productive ecosystems on the North 
American continent.
    And we immediately began working together with Republicans, 
Democrats, independents. We literally got to the point to where 
we had environmental organizations and Lisa Jackson, who was 
the EPA Administrator under President Obama, and energy 
companies all working together toward a common goal of a 
sustainable ecosystem and sustainable communities.
    And despite, at one point, death threats and other charges 
against me and the folks who were working on our team, we ended 
up putting a plan together that united everyone, a 
sustainability plan for the ecosystem and for the community, 
that ended up getting unanimous support through four committees 
and through our entire legislature.
    I believe we have an opportunity to make progress on this 
issue. I do. I think we have an opportunity to help bring down 
energy costs. I think we have an opportunity to truly pursue an 
all-of-the-above energy strategy that helps to reduce 
emissions. I think we have the ability to apply American 
innovation and know-how to reducing emissions in the United 
States and to being a global leader on this topic.
    Today--today--the United States spends more money on 
climate science and technology than any other country in the 
world. Are we spending these dollars in the places where we 
need to be spending them? Are we investing in strategies that 
are going to actually yield outputs and gains that, again, help 
to improve our environment, help to reduce emissions, help to 
bring down energy costs? Or are we spending money and studying 
things that aren't ultimately going to yield outputs or 
outcomes?
    I am really looking forward to hearing you all's thoughts 
today. I am really looking forward to getting your input and 
figuring out how we can work together to next steps to truly 
try to redefine this issue and stop this partisan 
ridiculousness that surrounds this issue and make progress that 
we can truly be proud of and turn over a planet, turn over an 
environment to my kids, to the next generation, and theirs that 
we can all be proud of.
    I thank you and yield back.
    Ms. Castor. Thank you, Mr. Graves.
    Without objection, members who wish to enter opening 
statements into the record may have 5 business days to do so.
    [The information follows:]
                               __________

           Statement for the Record of Hon. Suzanne Bonamici

    Statement for the Record Climate change is one of the greatest 
existential threats of our time; we cannot wait any longer to take bold 
action to address it.
    The U.S. Global Change Research Program's Fourth National Climate 
Assessment (NCA) and the most recent Intergovernmental Panel on Climate 
Change (IPCC) report add to the overwhelming research demonstrating 
that the consequences of inaction on climate change will be serious and 
swift.
    Findings from the IPCC report indicate that an increase in global 
warming by 1.5 degrees Celsius above pre-industrial levels would result 
in extreme heat, rising sea levels, melting glaciers, water scarcity, 
lower crop yields, more acidic ocean water, and bleached coral reefs. 
The report demonstrated that limiting global warming to 1.5 degrees 
Celsius by 2040 would require a reduction in net global greenhouse gas 
emissions by 45 percent below 2010 levels by 2030, and 100 percent 
below 2010 levels by 2050. The NCA makes clear that greenhouse gas 
emissions from human activities are the most substantial factor that 
account for the observed global warming over the past six decades, and 
carbon dioxide concentrations in the atmosphere are now higher than at 
any time in the last three million years.
    Without intervention, we will continue to see record heat waves, 
more acidic oceans, raging wildfires, unprecedented hurricanes, rising 
sea levels, and a surge in extreme weather patterns--all in our 
lifetime. Our inaction creates significant consequences for every 
person in our country, particularly and disproportionately young 
children, seniors, and other vulnerable populations.
    We must face this challenge. We have the opportunity and the 
imperative to reverse and mitigate the worst effects of climate change 
by reducing greenhouse gas emissions and transitioning to clean energy 
sources while creating new, good-paying jobs.
    In the district that I represent in Northwest Oregon, and across 
the country, people are demanding bold action on climate change. I have 
been inspired by the advocacy of young people across the country who 
are speaking out and demanding that the federal government act on 
climate change. These young leaders are reminding us that all three 
branches of the federal government, along with local and state 
governments, the private sector, and individuals, must all take 
immediate action to address the climate crisis.
    Confronting climate change will require ambitious action that 
acknowledges the scale of the crisis and uses the best available 
science in crafting solutions. I am excited to work with my colleagues 
on this Committee to fight for comprehensive policies that will 
strengthen the economy and protect our planet for future generations.

    4Ms. Castor. Now, I want to welcome our witnesses.
    First, we have Mr. Chris Suggs, who describes himself as a 
speaker, activist, community leader, and entrepreneur. He hails 
from Kinston, North Carolina, and is a student at the 
University of North Carolina at Chapel Hill.
    Ms. Lindsay Cooper is a recent college graduate who served 
as a Louisiana Governor's fellow while studying at Tulane. 
After graduation, she joined the Governor's Office of Coastal 
Activities as a policy analyst.
    Mr. Aji Piper is a plaintiff in the landmark climate change 
case called Juliana v. The United States. He lives in Seattle, 
near Puget Sound.
    And Ms. Melody Zhang is a climate justice coordinator at 
Sojourners and serves as co-chair for the steering committee of 
Young Evangelicals for Climate Action. She just moved to D.C. 
after growing up and attending school in Michigan.
    Without objection, the witnesses' written statements will 
be made part of the record.
    With that, Mr. Suggs, you are now recognized to give a 5-
minute presentation of your testimony.

 STATEMENTS OF CHRIS J. SUGGS, STUDENT AND ACTIVIST, KINSTON, 
   NORTH CAROLINA; LINDSAY COOPER, POLICY ANALYST, OFFICE OF 
 COASTAL ACTIVITIES, OFFICE OF THE GOVERNOR OF LOUISIANA; AJI 
     PIPER, PLAINTIFF, JULIANA V. UNITED STATES, SEATTLE, 
    WASHINGTON; AND MELODY ZHANG, CLIMATE JUSTICE CAMPAIGN 
  COORDINATOR, SOJOURNERS, AND CO-CHAIR, STEERING COMMITTEE, 
             YOUNG EVANGELICALS FOR CLIMATE ACTION

                  STATEMENT OF CHRIS J. SUGGS

    Mr. Suggs. Chair Castor, Ranking Member Graves, and members 
of the committee, thank you for this opportunity today to 
testify about my personal experience with natural disasters and 
our Nation's changing climate.
    My name is Chris Suggs. I am 18 years old, and I am a 
sophomore at the University of North Carolina at Chapel Hill, 
where I am studying political science and religious studies. I 
am from Kinston, North Carolina, where I was born and raised 
and my parents were born and raised.
    I am here today to talk about the impacts of climate change 
that I have seen in my community firsthand and my personal 
experiences, urging Congress to take action now.
    Kinston is a small town with just a little over 20,000 
people located in the heart of eastern North Carolina. My mom, 
who is here with me today, is an elementary school teacher and 
city councilwoman, and my father is a part-time recreation 
supervisor. I love my hometown. Everybody knows everybody, and 
it is truly a great place to live.
    Once a bustling community with a strong economy based on 
textiles and tobacco, today Kinston faces a lot of economic 
challenges. Before I was born, lots of industries left the 
area, and Hurricanes Fran and Floyd in the 1990s wiped out lots 
of businesses and damaged many of our neighborhoods.
    This led to disinvestment, lack of community morale, and a 
significant population loss. Between 1990 and 2010, Kinston 
lost more than 16 percent of its population. East Kinston was 
particularly hit hard. A neighborhood there known as Lincoln 
City was wiped out by Hurricane Floyd in 1999, the year before 
I was born.
    From what I have read and heard from members of my 
community, that hurricane was devastating--it was beyond 
devastating. But from what I have seen, driving down streets 
that were once full of homes and businesses but now overground 
with brush and wildlife thanks to flooding and FEMA buyout 
programs, I know it was beyond devastating.
    To this day, there continues to be concentrated poverty and 
crime in my neighborhood, in part due to lots of abandoned 
structures, outdated and dense public housing, and a lack of 
economic development.
    At a very young age, my parents instilled in my siblings 
and I the importance of serving our community and uplifting 
others. That is why, in October of 2014, when issues in Kinston 
began getting really bad, I knew I needed to make a change.
    Throughout 2014, gun violence become a serious issue in 
Kinston, especially among young people. This combined with a 
2014 study stating that my neighborhood of East Kinston was the 
most economically distressed census tract in the entire State 
of North Carolina made me decide that enough was enough.
    So I decided to start my nonprofit organization, Kinston 
Teens Incorporated, with a mission of empowering young people 
through service, leadership, and civic engagement. We host 
youth leadership seminars, arrange college visits for high 
school students, work to register voters, and make sure our 
voices are heard at State and local government meetings.
    In my neighborhood of East Kinston, we launched a vacant-
lot transformation program to transform vacant lots into small 
parks, community gardens, and other community amenities. A big 
part of our work has been to respond to disasters like 
Hurricane Matthew and Florence and work to build community 
resilience.
    The thing about Kinston is that hurricanes aren't even the 
worst part of the storm for us; it is the catastrophic flooding 
that follows. Kinston sits along the banks of the Neuse River, 
which cuts right through our town. That river is one of our 
greatest natural assets but also one of the most dangerous. It 
has flooded again and again, cutting off parts of our 
community, wiping out neighborhoods, and flooding our main 
business corridor along U.S. Highway 70.
    As a result, my town's socioeconomic challenges cannot be 
divorced from the extreme weather we have experienced. Poverty 
and hurricanes are deeply intertwined for us in eastern North 
Carolina.
    In 2016, Hurricane Matthew hit. Following the storm, the 
river flood stage hit about 28.3 feet. And within 3 or 4 days, 
it was swamping entire apartment complexes, flooding businesses 
and churches, and cutting the town in half.
    My organization, Kinston Teens, had been in existence for 
about 2 years then, and we immediately sprang into action. 
Parts of Kinston were cut off from food assets for about 25 
days because of flooding. So it took a serious community effort 
to make sure that our neighbors were provided with the 
resources to survive. It took 3 or 4 weeks for the waters to 
completely recede.
    When Hurricane Florence hit in September 2018 and caused 
that same level of destruction, many families, neighborhoods, 
and businesses were once again under water. They were still 
recovering from Matthew, though.
    But Kinston Teens again sprang into action. We worked with 
our city officials and police department to go door to door 
notifying people about the evacuation process, telling them 
where their local shelters were, and even in some cases helping 
people to physically evacuate. We coordinated volunteers to 
distribute food, groceries, and phone chargers to families in 
the shelters and our first responders.
    My community is still rebuilding from Florence and from 
Matthew on top of that. And with hurricane season starting in 
just a few months, people in Kinston are hesitant about what 
might happen this year. In just my 18\1/2\ years on this earth, 
my community has experienced two 500-year floods on top of the 
floods after Hurricane Floyd in 1999. For these catastrophic 
events to happen at such a fast rate, a rate that my community 
can't recover from, is deeply alarming.
    Climate change is an extra kick to communities and 
populations that are already down, especially with how often 
these major hurricanes and floods are occurring. My testimony 
is a call to action. We have to do something now to address the 
threat of a changing climate, reduce our impact on the 
environment, and mitigate the effects of these natural 
disasters.
    Thank you so much for this opportunity to share my story 
and my community's story. I look forward to answering your 
questions.
    [The statement of Mr. Suggs follows:]
                               __________

                   Prepared Statement of Chris Suggs

                              introduction
    Chair Castor, Ranking Member Graves, and members of the House 
Select Committee on the Climate Crisis, thank you for the opportunity 
to testify today about my personal experience with climate change, and 
the need for urgent and equitable action to address this crisis. Chair 
Castor, thank you also for your recent leadership in introducing H.R. 
9, the Climate Action Now Act--I'm excited to see Congress taking the 
first steps in a long time to act on climate.
    My name is Chris Suggs and I am 18 years old. I'm a sophomore at 
the University of North Carolina at Chapel Hill, where I'm double-
majoring in Political Science and Religious Studies. I'm from Kinston, 
North Carolina, where I have lived my whole life and my parents have 
lived their whole lives.
    In September 2018, my town was hit by Hurricane Florence--the 
second major hurricane in a 2-year period. The storm led to historic 
flooding that left entire neighborhoods underwater and caused massive 
damage to homes, businesses and infrastructure. Now, more than six 
months later, things are finally starting to get back to normal--just a 
few weeks ago, the last flood-damaged business finally re-opened. I'm 
here today to talk about the impacts of climate change that I've seen 
in my community firsthand and why we must take climate action now.
                   kinston background & kinston teens
    Kinston is a small town with just a little over 20,000 people, 
located in the heart of eastern North Carolina. I was raised in East 
Kinston, a mostly poor, predominantly black neighborhood in the 
southeast part of town. My mom is an elementary school teacher and a 
city councilwoman, and my father is a parks and recreation supervisor. 
I love my hometown--everybody knows everybody, and it is truly an 
awesome place to live.
    Once a bustling community with a robust economy based on textile 
manufacturing and tobacco, today Kinston faces a number of economic 
challenges. Before I was born, many industries left the area, and 
Hurricanes Fran and Floyd in the 1990s wiped out a lot of businesses 
and damaged many of our neighborhoods, leading to disinvestment, a lack 
of community morale, and significant population loss. Between 1990 and 
2010, the population of Kinston fell more than 16 percent. East Kinston 
was particularly hit hard--a neighborhood known as ``Lincoln City'' was 
completely wiped out by Hurricane Floyd in 1999. To this day, there 
continues to be concentrated poverty and crime in part thanks to lots 
of abandoned structures, outdated and dense public housing, and a lack 
of economic development.
    But despite these challenges, I believe Kinston is a great 
community, an awesome community. I grew up loving it and have always 
been actively engaged in my school, community, and in my church, Sand 
Hill Free Will Baptist Church. At a very young age, my parents 
instilled in my siblings and I the importance of serving our community 
and uplifting others. That's why, in October 2014, when I was 14 years 
old, and issues in Kinston began getting too bad, I knew I needed to 
make a change. Shootings were happening nearly every other day, 
especially among young people--to people I knew, people I considered 
friends. My classmates were shooting each other or getting shot. This 
combined with a 2014 study showing that my neighborhood of East Kinston 
was the most economically distressed census tract in the state, led me 
to decide that enough was enough.
    We needed an outlet for young people to be empowered, and to make 
changes in their own lives. I'd been involved with Boy Scouts all 
throughout middle school, but I knew we needed more--a way to get 
people civically engaged and talk directly to our elected officials.
    So, I decided to start a nonprofit called Kinston Teens with a 
mission of empowering young people through service, leadership, and 
civic engagement. We've been going strong for a little over four and a 
half years now, working to ensure young people are involved in the 
decisions that most affect us.
    We host youth leadership seminars, arrange college visits for high 
school students, work to register voters, create mentoring programs at 
elementary schools, and make sure our voices are heard at state and 
local government meetings. In my neighborhood of East Kinston, we 
launched a Vacant Lot Transformation Program to transform vacant lots 
into small parks, community gardens and other amenities. We've been 
able to accomplish a lot in just over four years, but there is much 
more to be done. A big part of our work has been to respond to 
disasters, like Hurricanes Matthew and Florence, and work to build 
community resilience.
           hurricanes matthew & florence, and climate change
    As I mentioned, the year before I was born, in September 1999, 
Hurricane Floyd hit. From what I've read and heard from my parents and 
members of my community, it was beyond devastating. I grew up 
continuously hearing about how Floyd and Fran, which was an earlier 
hurricane in the 90s, forever changed Kinston and our community.
    The thing about Kinston is that the hurricanes aren't even the 
worst part of the storm . . . it's the catastrophic flooding that 
follows. Kinston sits on the banks of the Neuse River, which cuts right 
through our town. That river is one of our greatest natural assets, but 
also one of the most dangerous. It has flooded again and again and 
again--cutting off parts of our community and damaging homes, 
apartments and our biggest business corridor, which lies along U.S. 
Highway 70. As a result, my town's socioeconomic challenges cannot be 
divorced from the extreme weather we've experienced. Poverty and 
hurricanes are deeply intertwined for us in Eastern North Carolina.
    In 2016 when I was 16, Hurricane Matthew hit. Within three or four 
days after the hurricane, entire neighborhoods were under water. During 
Matthew, the flood stage hit 28.3 feet--swamping apartment complexes, 
flooding businesses and churches, and cutting the town in half. My 
organization, Kinston Teens, had been in existence for two years when 
Matthew hit, and we immediately got to work. It was a month-long 
fiasco. Parts of Kinston were cut off from food access for 25 days 
because of the flooding. It took three or four weeks for the flood 
levels to completely recede.
    Fast forward two years, to last year: September of 2018 when 
Hurricane Florence hit. At the time, many families, neighborhoods and 
businesses were still recovering from Hurricane Matthew--and Florence 
and its floods made sure that these places that were just starting to 
get stable again were right back under water.
    Kinston Teens again sprang into action. We worked with our city 
officials and police department to go door to door before the Hurricane 
hit and in the days following ahead of the floods, notifying people 
about the evacuation process, telling them where their local shelters 
were, and even in some cases helping them to physically evacuate. We 
had businesses donate funds, coordinated volunteers to distribute food, 
groceries, phone chargers and other supplies to families in shelters 
and first responders impacted by the storm. I remember one lady we 
helped was a single mother of two kids, who lived in southeast Kinston 
and worked at a restaurant on highway 70. Her home was flooded, and her 
job was too. We were fortunate to be able to provide food and clothes 
for her family while they were displaced in the shelter. It's been 
eight months, though, and she's still not fully back on her feet. As 
the greatest country in the world, there's no way we can sit idle while 
these storms cause such detrimental effects on our citizens' lives.
                   next steps & climate action needed
    My community is still rebuilding from Florence, and from Matthew on 
top of that. And there's hesitation and fear in Kinston around what 
might happen this year. Hurricane season starts in just a few months. 
In just my eighteen-and-a-half years on this Earth, my community has 
experienced TWO 500-year-floods--on top of the floods after Hurricane 
Floyd in 1999. They're not supposed to happen this often, but they 
occurred within the span of just two years--back to back. For these 
kinds of catastrophic events to happen at such a fast rate--a rate that 
my community can't recover from--is deeply alarming.
    For me, the saddest thing about these recurring natural disasters 
that are exacerbated by climate change, is that the communities that 
are the most affected--like mine--are often the communities that have 
ALREADY been hit the hardest by all of society's other problems. You 
have poor, rural communities that are completely underwater or get cut 
off from their access to food, hospitals, and medical supplies. You 
have communities that rely heavily on the farming industry just 
devastated by these storms, causing farmers, migrant workers and their 
families to lose income while the farms are underwater. And you have 
predominantly poor communities, black communities and housing projects 
that were built in the flood plains--because those were the only places 
they were allowed--that become completely submerged. That's the story 
of Kinston, and much of eastern North Carolina.
    I've never known a world that wasn't impacted by climate change, 
and it's time for that to change. My generation knows we have no time 
to waste, and while Kinston Teens and I are here to help Kinston 
rebuild and become as resilient as possible-- it shouldn't just fall to 
us. We need action. I voted for the first time in the November of 2018 
and like millions other young people and first-time voters across the 
country, I was voting to keep our communities safe and resilient, and 
to protect our families and our homes. We turned out in record numbers 
last year, and we're not going away.
    Climate change is an extra kick to communities and populations that 
are already down . . . especially with how often these major hurricanes 
and floods are occurring. My testimony is a call for action. We have to 
do something now to address the threat of a changing climate, reduce 
OUR impact on the environment, and mitigate the effects of these 
natural disasters.
    Thank you so much for the opportunity to tell my story today. I 
look forward to answering your questions.

    Ms. Castor. Thank you, Mr. Suggs.
    Ms. Cooper, you are now recognized for 5 minutes.

                  STATEMENT OF LINDSAY COOPER

    Ms. Cooper. Good morning, Chair Castor, Ranking Member 
Graves, and members of the committee. My name is Lindsay 
Cooper, and I want to thank you for the opportunity to discuss 
a Louisiana perspective on climate concerns.
    Louisiana really is, in many respects, the perfect case 
study for this committee as it grapples with a path moving 
forward for action in regard to climate change and its 
associated impacts.
    But before further detailing the role of Louisiana in this 
discussion, let me first introduce myself. I was born, raised, 
and educated on the north shore of Lake Pontchartrain in 
Louisiana. I attended Tulane University, where I majored in 
marine biology and public policy, and I graduated this past 
December.
    During college, I served as an environmental advocacy 
volunteer with No Waste NOLA, a local nonprofit seeking to 
reduce plastic waste throughout the city. I also interned for 
the Gulf Restoration Network, a local nonprofit focused on 
science-based coastal protection. I served as a research 
assistant for the Tulane Institute of Water Resources Law and 
Policy, and I became president of the Tulane University Green 
Club my sophomore year.
    Last year, as Chair Castor recognized earlier, I served as 
a Louisiana Governor's fellow, where I had the privilege to 
work alongside Governor John Bel Edwards in his coastal office 
directly on statewide policy initiatives.
    It was in this time that I discovered the extent of our 
Louisiana coastal crisis and the imperative with which it must 
be addressed. Therefore, upon graduation, I joined Governor 
John Bel Edwards in his coastal office, where I serve as a 
policy analyst. I work diligently alongside the Coastal 
Protection and Restoration Authority to move forward policies 
that promote coastal wetland protection and restoration in my 
state.
    However, it did not take this experience in coastal policy 
to teach me about devastation from unparalleled climate 
threats. In states vulnerable to hurricanes, floods, and 
coastal degradation, my family and countless other lifelong 
friends have confronted devastation after devastation from 
these increasingly intense weather events. In the wake of 
Hurricane Katrina, my own family had to relocate for months 
while our schools were closed, but many of my neighbors and 
friends never returned.
    In light of these circumstances, I am compelled to use my 
education and experience to fight for the culture, people, and 
environment into which I was born.
    The Louisiana coast serves many national interests: 
fisheries, energy production, port, navigation, and trade 
activities. It provides countless ecosystem services and is 
home to over 2 million people.
    Our coastal wetlands are a key first line of defense to 
protect our interests and our people. Louisiana is home to 
approximately 30 percent of these national wetlands. But, 
tragically, we are losing roughly a football field's worth 
every hour and a half due to sediment starvation, saltwater 
intrusion, and erosion.
    In the decades to come, sea-level rise will play a larger 
and larger role in sustainability of our coast. Our communities 
have not moved from the Gulf for waterfront views, but the Gulf 
has moved to us.
    In 2005, Hurricanes Katrina and Rita underscored the 
importance of these coastal wetlands for protection of inland 
communities, including urban areas like the city of New Orleans 
but also less densely populated areas of the southwest.
    Some call us a canary in a coal mine or a harbinger of bad 
things soon to happen all around us. As Ranking Member Graves 
noted earlier, we have already lost 2,000 square miles of 
wetlands since the 1930s, and we stand to lose much more in the 
years to come without significant action.
    To others, we are a living laboratory, a testing ground for 
new opportunities and a place where community needs, cutting-
edge science, effective natural and manmade infrastructure, and 
good public policy can come together to balance interests of 
economy and environment.
    But regardless of if you take the pessimistic or optimistic 
view, it cannot be denied that we have all of the elements 
necessary to craft a large-scale solution for our country. We 
have a long, painful history of natural disasters and lived 
experience of coastal land loss. We have a strong culture of 
appreciation for our natural environment from a recreation and 
commercial point of view. And we have an economy that is deeply 
connected to access and utilization of energy resources.
    We have also found a way to deal with the impacts of our 
changing coast that prioritizes science-based decisionmaking 
and minimized politics. And since 2007, through our Coastal 
Master Plan, we have completed 111 projects across 20 of our 
coastal parishes.
    So, in conclusion, as a Louisianan, I understand climate 
change. It is something my State lives with every day. Even as 
we sit here today, our Louisiana coastline is shrinking. People 
are migrating inland, and unique Louisiana cultures are being 
swept into the Gulf.
    So, for these reasons, I ask you to consider my testimony 
and the urgency with which we must address this massive 
problem.
    Thank you for allowing me this opportunity to share the 
urgency of what we face and what I am doing back home to help 
shape a better future for our coast, my state, and our nation.
    [The statement of Ms. Cooper follows:]
                               __________

Statement of Lindsay Cooper, The Louisiana Governor's Office of Coastal 
                               Activities

    Good morning Chairwoman Castor, Ranking Member Graves, and Members 
of the Committee. My name is Lindsay Cooper, and I want to thank you 
for the opportunity to discuss a Louisiana perspective on climate 
concerns. Louisiana is, in many respects, the perfect case study for 
this committee as it grapples with a path forward for the nation in 
regard to climate change and its associated impacts. Before further 
detailing the role of Louisiana in this discussion, let me first 
introduce myself. I was born, raised, and educated on the north shore 
of Lake Pontchartrain in Louisiana. I attended Tulane University for my 
bachelor's degree where I graduated in Marine Biology and Public Policy 
in December 2018. During college I served as an environmental advocacy 
volunteer with No Waste Nola, a local nonprofit that fights to reduce 
waste in New Orleans; interned for the Gulf Restoration Network, a 
nonprofit focused on science-based coastal protection; served as a 
research assistant with the Tulane Institute of Water Resources Law and 
Policy; and, became President of the Tulane University Green Club my 
sophomore year.
    Last year, I also served as a Louisiana Governor's Fellow where I 
had the privilege to work with Louisiana Governor John Bel Edwards and 
his Coastal Activities Office directly on state-wide policy 
initiatives. It was in this time that I discovered the extent of our 
Louisiana coastal crisis and the imperative with which it must be 
addressed. Therefore, upon graduation, I joined Governor John Bel 
Edward's Office of Coastal Activities where I serve as a policy 
analyst. I work diligently alongside the Coastal Protection and 
Restoration Authority to move forward policies that promote coastal 
wetlands protection and restoration in Louisiana. However, it did not 
take my experiences in coastal policy to teach me that Louisiana faces 
unparalleled climate threats. In a state vulnerable to hurricanes, 
floods, and coastal degradation, my family and countless other lifelong 
friends have confronted devastation after devastation from increasingly 
intense weather events. In the wake of Hurricane Katrina, my own family 
had to relocate for months while our schools were flooded, but many of 
my neighbors and friends were never able to return. In light of these 
circumstances, I am compelled to use my education and experience to 
fight for the culture, people, and the environment into which I was 
born. The Louisiana coast serves many national interests: fisheries, 
energy production, port, navigation, and trade activities; it provides 
countless ecosystem services and is home to over two million people. 
Our coastal wetlands are a key first line of defense to protect these 
interests and our people. Louisiana is home to approximately 30 percent 
of the nation's wetlands. Tragically, we are losing roughly a football 
field's worth of coastal wetlands every hour and a half due to sediment 
starvation, saltwater intrusion, and erosion. In the decades to come, 
sea level rise will play a larger and larger role in the sustainability 
of coastal Louisiana. Our communities have not moved to the Gulf for 
waterfront views, but the Gulf has moved to us. In 2005, Hurricanes 
Katrina and Rita underscored the importance of our coastal wetlands for 
the protection of inland communities including urban areas like the 
City of New Orleans and less densely populated portions of the 
southwest. In 2006, the Louisiana Legislature created the Coastal 
Protection and Restoration Authority (CPRA), a first in the nation 
organization tasked with coordinating the local and state efforts to 
save our coast. CPRA is responsible for developing the state's Coastal 
Master Plan every six years which calls for a $50 billion investment in 
over 100 coastal protection and restoration projects over the next 50 
years. These projects are essential both to create a stronger and more 
resilient coast and to reduce wetlands loss. The Master Plan is based 
on sound science, public input and bipartisan approval from the state 
legislature.
    Some call us a canary in the coal mine or harbingers of bad things 
soon to happen around us. We have lost 2,000 square miles of coastline 
since the 1930s and stand to lose much more in the years to come 
without significant action. To others, we are a living laboratory, a 
testing ground for new opportunities, and a place where community 
needs, cutting edge science, effective natural and manmade 
infrastructure, and good public policy can come together to balance the 
interests of economy and environment.
    Regardless of whether you take the pessimistic or optimistic view 
of the outcome, it cannot be denied that we have all the elements 
necessary to craft a large-scale solution for the country. We have a 
long, painful history of natural disasters and lived experience of 
coastal land loss. We have a strong culture of appreciation for our 
natural environment from a recreation and commercial point of view. And 
we have an economy that is deeply connected to access and utilization 
of energy resources located offshore. We have also found a way to deal 
with the impacts of our changing coast that prioritizes science-based 
decision making and minimized politics. And we have completed 111 
projects across all 20 of our coastal parishes since 2007.
    In 2017 the Louisiana Legislature unanimously approved the third 
iteration of our Coastal Master Plan. When we developed our first plan 
in 2007, we had no money, but we knew that we needed a principled 
approach to make hard decisions and allocate scarce resources. We 
amended our state constitution with tremendous public support to 
dedicate all revenues we receive from the federal government from 
offshore oil and gas development to coastal protection and restoration. 
And in the aftermath of the Deepwater Horizon oil spill, the state also 
has relied on the Coastal Master Plan to guide our recovery and drive 
the investment of nearly $8 billion that will come to the State through 
2032 as part of the settlement.
    In conclusion, as a Louisianan, I understand climate change. It's 
something my state lives with every day. Even as we sit here today, our 
Louisiana coastal wetlands are shrinking; people are migrating inland; 
some unique Louisiana cultures are being swept into the Gulf. For these 
reasons, I ask you to consider my testimony and the urgency with which 
we must work together to confront this massive problem. Thank you for 
allowing me this opportunity to share the urgency of what we face and 
what I am doing back home to help shape a better future for our coast, 
our state and our nation.

    Ms. Castor. Thank you, Ms. Cooper.
    Mr. Piper, your turn. You are recognized for 5 minutes.

                     STATEMENT OF AJI PIPER

    Mr. Piper. Chair Castor, Ranking Member Graves, and 
distinguished members of the Select Committee on the Climate 
Crisis, thank you for inviting me to provide testimony.
    My name is Aji Piper. I am 18 years old and one of the 21 
young Americans who filed the landmark constitutional climate 
lawsuit, Juliana v. United States.
    While I am not a lawyer nor a climate scientist and I only 
recently came of voting age, I know that I have constitutional 
rights at stake in the actions you take. And I know from 
studying climate science and living with the consequences of 
climate change today that my health, my community, and my 
future and that of my generation is at stake. And I am here to 
speak to you as a young person on the greatest issue of our 
time: climate change.
    It is the constitutional duty of the government to protect 
public-trust resources on which we all depend and to protect us 
from any damages that it may inflict upon its citizens. 
Instead, the government is taking actions that are directly 
contributing to the destruction of our planet. It is actively 
abusing the trust of its most vulnerable citizens, the youth.
    Growing up, my mom always told me that to be an adult is to 
take responsibility for my actions and the way that those 
actions impact others. She told me that to be a leader is to 
take responsibility for the well-being of my community and to 
actively work to make it safer and healthy for everyone. I took 
that advice to heart. I got involved in activism from an early 
age, planting trees with a nonprofit organization.
    But as I got older, I began to realize that the 
environmental issues facing my community were much larger than 
could reasonably be dealt with just by planting trees. Seeing 
the skies of my hometown filled with smoke, seeing our snow 
pack diminish and our oceans become a rising threat to coastal 
communities and an unsafe acidic home to shellfish in 
Washington, I knew that in order to fulfill my responsibility 
to myself and my community, I needed to broaden the scope of my 
civic engagement in order to truly address the issue of climate 
change.
    Like youth who have come before us in the civil rights 
movement and other social justice movements, it is often the 
young among us that shine the light on systems of injustice. 
And just as my federal government orchestrated systems of 
racial segregation in housing policies and sanctioned 
discrimination in schools until the middle of the last 
century--policies that harmed children--my federal government 
has also orchestrated and sanctioned a system of fossil fuel 
energy that is harming children in another way, that is 
irreversibly threatening our personal security, our health, our 
homes, and our communities by creating a dangerous climate 
system.
    So, in 2015, 21 young people, myself included, filed a 
lawsuit against the United States and agencies of the executive 
branch to safeguard our constitutional right to a stable 
climate.
    Since then, first the Obama administration and now the 
Trump administration has done everything in their power to stop 
our case from going to trial, making unprecedented requests of 
the courts, and this is simply because they are scared of what 
trial will reveal.
    During the litigation, our attorneys found hundreds of 
documents demonstrating the United States Government's 
knowledge of the threats of greenhouse gas emissions and 
climate change since 1961. In short, our government has 
consciously sanctioned climate destruction for more than five 
decades.
    And because climate change is a systemic issue, it requires 
systemic change to address it. The burdens of the system's 
problems cannot be placed on the shoulders of an individual, 
especially not a young person. To combat the systemwide 
government actions that have led to the climate crisis, we need 
a systemwide reform at the governmental level to address this 
emergency.
    And for this to happen, we need all three branches of 
government to act in concert. The courts need to declare our 
constitutional rights and mandate the standard to protect us. 
This branch should also recognize our constitutional rights, 
make legislative findings on the best science, and enact 
legislation not based on political will but scientific 
necessity of stopping this catastrophe. The executive needs to 
be held accountable to the rule of law and stop promoting 
propaganda in support of fossil fuels and promoting lies about 
the climate crisis.
    While government may play an important role in providing 
for our nation's energy, housing, and schools, we don't need 
segregated housing and schools and we don't need dangerous 
fossil energy. We need policies that don't discriminate and 
don't harm children.
    All of you took an oath to uphold our Constitution and 
secure the blessings of liberty to ourselves and our posterity. 
In 2016, Judge Ann Aiken issued a historic opinion in our 
lawsuit, writing that ``the right to a climate system capable 
of sustaining human life is fundamental to a free and ordered 
society.''
    And so I ask the committee: What is your plan to honor your 
oath and ensure my right and the rights of young people around 
the nation to liberty and a stable climate, as mandated by the 
Constitution?
    You have a choice. Will you deprive your children and young 
people across the country of their fundamental right to 
liberty, or will you fight to protect us and our nation for 
posterity? What will you tell your children about 
responsibility if you fail to act now in the face of crisis?
    When you leave office, I want you to be able to walk away 
knowing you gave it your all, knowing you can be proud of the 
legacy that you leave. The moment is now. The moment is not for 
fear or incrementalism. This is the moment for heroism, for 
humanity, for standing with children around our country, 
standing with me.
    Please join your colleagues and publicly support our 
lawsuit. Join any future amicus--sorry--curiae--thank you. I 
always forget how to pronounce that word--amicus curiae briefs 
that Members of Congress file in support of our constitutional 
rights and the judiciary exercising its Article III powers in 
our case and show children everywhere you care about their 
future and the future of all generations to come.
    Thank you so much.
    [The statement of Mr. Piper follows:]
                               __________

  Aji Piper, Climate Activist and Youth Plaintiff, Juliana v. United 
                                 States

    Chair Castor, Ranking Member Graves, and distinguished Members of 
this Select Committee.
    Thank you for inviting me to provide testimony to your Select 
Committee on the Climate Crisis. My name is Aji Piper. I'm 18-years-
old. I love vanilla bean ice cream, snowboarding, and writing songs on 
my ukulele. I love my family and my friends and my home near the Puget 
Sound in Seattle. And I am suing the United States government for 
knowingly causing climate change as the largest historic contributor to 
the problem and for continuing, even now, to make a dangerous situation 
worse.
    I have been reading climate science literature since I was 13-
years-old. I have also been studying what my governments have done 
about the climate crisis during my lifetime, and even before I was 
born. For much of my life, I saw climate change as a problem that would 
be solved by adults in nice suits in a faraway Capitol. But as I grew 
up, and the coal and oil trains kept rolling through my hometown of 
Seattle, and the oil tankers kept sailing in and out of Puget Sound, I 
became apprehensive.
    The late summer skies over Seattle now regularly fill with wildfire 
smoke, people walk around in gas masks, our ocean waters around my 
hometown are acidifying and rising, and yet there are still politicians 
in Washington, D.C. talking about climate change as if it is an issue 
to debate and still talking about promoting fossil fuel energy as if 
the pollution from that energy source is not dangerously destroying the 
one planet we've got, and the lives and futures of children along with 
it. I got to a point where I felt like I could no longer wait for the 
solutions to come from the Capitol or the adults that are responsible 
to protect young people like myself.
    I am one of the 21 Youth Plaintiffs in the constitutional climate 
lawsuit, Juliana v. United States. Our complaint asserts that, through 
the federal government's affirmative actions in causing climate change, 
it has violated my constitutional rights, and those of my generation, 
to life, liberty, property, and equal protection under the law, as well 
as failed to protect vital public trust resources.\1\ While I am not a 
legal expert, nor a climate scientist, and I only recently came of 
voting age, the goal of my testimony is to explain my perspective on 
the most consequential and far-reaching issues of our time, an issue 
that all three branches of this government are duty bound to address.
---------------------------------------------------------------------------
    \1\First Amended Complaint, Juliana et al. v. United States et al., 
No. 6:15-cv-01517-AA (D. Or. Sept. 10, 2015) (Exhibit DD).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As a young black man, I have grown up with the long-lasting 
consequences of unconstitutional discrimination from government-
sanctioned and -engineered segregation. My childhood was shadowed by 
trauma from an abusive father. The trajectory of his life was formed in 
part by generational trauma of unlawful discrimination. Generations of 
black families have lived with the lasting legacy of government-
sponsored racial discrimination, not just in the South, but in places 
like Seattle, where white suburbs formed out of federal government 
policies with restrictive covenants on housing developments and 
federally-guaranteed loans to homeowners that only whites could take 
advantage of. Cities across the country are segregated because of these 
federal policies that were finally declared unconstitutional after 
World War II by the Supreme Court, and that this branch of government 
attempted to redress decades later in the Fair Housing Act of 1968.\2\ 
But the damage had been done and the legacy of that unconstitutional 
government conduct remains today in the color and shape of our 
communities, the makeup of our schools, the voting districts, and the 
disparity in those who were able to acquire home equity and wealth and 
those who were not. Unconstitutional systemic government actions have 
long-lasting social consequences. Innocent children inherit those 
legacies.
---------------------------------------------------------------------------
    \2\The Color of Law: A Forgotten History of How Our Government 
Segregated America, Richard Rothstein (2017).
---------------------------------------------------------------------------
    In response to decades of unconstitutional discrimination, in May 
of 1963, thousands of children led marches through Birmingham, Alabama 
to demand the desegregation of the city in a movement now known as the 
Birmingham Children's Crusade. On the first day of the protest, 
hundreds of children were arrested. By the second day, police officers 
tried to stop the marches by using fire hoses and police dogs to attack 
the children. On May 10, 1963, within one week of the first march, the 
city acquiesced to the children's demands, agreeing to desegregate 
businesses and to free all who had been jailed during the 
demonstrations. These youth stood at the forefront of one of the most 
pivotal moments in civil rights reform in the United States, using non-
violent protest as a means to advance human rights.
    Young people are often on the frontlines of human rights abuses, 
experiencing the most severe impacts of bigotry, oppression, and 
violence, sometimes in their own homes and often at the hands of adults 
in positions of power who do not act in the best interest of children. 
They are also inevitably at the forefront of the movements that emerge 
to address these issues, as we saw in the Child Labor Law Movement or 
the Civil Rights Movement.
    Climate change is no different. My generation, and generations to 
come, have the most to lose from the sweeping impacts of climate 
change. As a result, youth throughout the world have taken the lead in 
the movement to address this existential threat. Just last month, over 
a million students the world over walked out of class to demand urgent 
and sane climate action from the adults in charge.
    The entrenched federal government policies of orchestrating, 
promoting, supporting, subsidizing, sanctioning, and permitting a 
fossil fuel energy system will perpetrate as long-lasting harm on 
generations of innocent children as did this body's legal sanctioning 
and promotion of segregation. When government sanctions and controls a 
system that unconstitutionally deprives children of their basic 
fundamental rights to life, liberty and property, that system must be 
dismantled, and it is up to all three branches of this federal 
government to act now while there is still time to uphold the rights of 
my generation, to stop the perpetuation of intergenerational injustice.
Our case, Juliana v. United States
    I, along with 20 other youth plaintiffs, Dr. James Hansen as 
guardian for future generations, and a youth-led organization called 
Earth Guardians, filed the landmark Juliana v. United States lawsuit in 
August 2015. Since the time our case was filed, when President Obama 
was in the White House, the federal defendants\3\ have done everything 
in their power to stop Juliana from going to trial. They have made 
unprecedented and drastic efforts to have it thrown out before we get 
our day in court. Nonetheless, we have won every step of the way. In 
November 2016, we received a historic opinion from U.S. District Court 
Judge Ann Aiken, who aptly began her decision by referring to Juliana 
as ``no ordinary lawsuit.''\4\
---------------------------------------------------------------------------
    \3\The United States Of America; The Office Of The President Of The 
United States; Council On Environmental Quality; Office Of Management 
And Budget; Office Of Science And Technology Policy; The United States 
Department Of Energy; The United States Department Of The Interior; The 
United States Department Of Transportation; The United States 
Department Of Agriculture; The United States Department Of Commerce; 
The United States Department Of Defense; The United States Department 
Of State; The United States Environmental Protection Agency.
    \4\Juliana v. United States, 217 F. Supp. 3d 124 (D. Or. 2016) 
(Exhibit S).
---------------------------------------------------------------------------
    Judge Aiken's opinion stated that:

          Exercising my `reasoned judgment,' . . . I have no doubt that 
        the right to a climate system capable of sustaining human life 
        is fundamental to a free and ordered society. Just as marriage 
        is the `foundation of the family,' a stable climate system is 
        quite literally the foundation `of society, without which there 
        would be neither civilization nor progress.'\5\
---------------------------------------------------------------------------
    \5\Exhibit S.
---------------------------------------------------------------------------
    As part of her decision, the district court properly found the 
right ``to a climate system capable of sustaining human life'' is both 
fundamental to ordered liberty and deeply rooted in our Nation's 
history and traditions. The district court also found we should have an 
opportunity to present evidence to show that my federal government has 
knowingly violated this fundamental right.\6\ In response, the 
Executive Branch defendants say that: ``Plaintiffs' purported right to 
a `climate system capable of sustaining human life' has no basis 
whatsoever in this Nation's history or tradition and is therefore not a 
fundamental right.''\7\ My government leaders are denying that the very 
foundation of life on Earth, our climate system, is one of my 
unalienable rights as a human living in this Nation. They say it is not 
one of the rights that I was endowed with when I was born. They say 
that my government can deprive me and all human civilization of the 
climate foundation of life, and discriminate against me, other children 
and all future generations in favor of supporting a fossil fuel-based 
economy and the narrow interests fossil fuels support, over policies 
that power clean energy and don't threaten my life and my security.
---------------------------------------------------------------------------
    \6\See also District Court order granting in part and denying in 
part Defendants Motion for Summary Judgment and Motion for Judgment on 
the Pleadings (Exhibit T).
    \7\Defendants' Reply Brief on Interlocutory Appeal (Exhibit EE).
---------------------------------------------------------------------------
    Our lawsuit makes a number of other claims, including that the 
United States government has a fiduciary responsibility to protect our 
public trust resources, such as the air, fresh water, the sea and the 
shores of the sea, not just for my generation, but for future 
generations as well. My co-plaintiffs and I are beneficiaries of rights 
under the public trust doctrine, unalienable rights that are secured by 
the substantive due process clause of the Fifth Amendment and the 
Posterity Clause of the Constitution. Defendants have failed in their 
duty of care to safeguard the interests of my generation as the present 
and future beneficiaries of the public trust.
    We have a tremendous amount of evidence, mostly from government 
documents, showing that the U.S. government has knowingly endangered 
our health and welfare by creating and promoting a national fossil 
fuel-based energy system, through controlling (1) Energy planning and 
policies; (2) fossil fuel extraction and production; (3) subsidies, 
financial and R&D support; (4) imports and exports; (5) interstate 
fossil fuel infrastructure and transport; (6) power plants and 
refineries; (7) energy standards for appliances, equipment, and 
buildings; (8) road, rail, freight, and air transportation; (9) 
government operations.\8\ All of these deliberate orchestrated actions 
by the United States have cumulatively resulted in dangerous levels of 
atmospheric CO2, which deprive us of our fundamental rights to life, 
liberty, and property. Importantly, the Defendants have admitted many 
of the allegations in our complaint, including that greenhouse gases 
``pose risks to human health and welfare'' and ``threaten the public 
health and welfare of current and future generations;'' that the U.S. 
has emitted 25 percent of cumulative global CO2 emissions from 1850 to 
2012; and current CO2 concentrations are ``unprecedented for at least 
2.6 million years.''\9\
---------------------------------------------------------------------------
    \8\Expert Report of James Gustave (``Gus'') Speth (Exhibit U); 
Declaration of Peter A. Erickson (Exhibit E).
    \9\Defendants Answer para.para.5, 151, 208-09; 213 (Exhibit FF); 
Exhibit R.
---------------------------------------------------------------------------
    While the Defendants have been unsuccessful at stopping our case, 
they have certainly delayed it, and time is not on our side. Just weeks 
before we were set to begin what would have been, and certainly will 
be, the most important trial of the century for my generation, the 
Supreme Court issued a temporary stay of our trial in order to consider 
whether to stay our case and review it before a final decision.\10\ 
While the Supreme Court ultimately denied the defendants' request and 
lifted the stay, the case has bounced up and down between the U.S. 
Supreme Court, the Ninth Circuit Court of Appeals and the District 
Court, while fossil fuels continue to be extracted and burned.\11\ As 
our planet drifts ever-closer to the point of no return, we knew we had 
to do something.
---------------------------------------------------------------------------
    \10\In re United States, 139 S. Ct. 16, vacated, 139 S. Ct. 452 
(2018).
    \11\For the briefing before the Ninth Circuit Court of Appeals on 
the government's interlocutory appeal see Exhibit P (Defendants' 
Opening Brief); Exhibit Q (Plaintiffs' Answer Brief); Exhibit EE 
(Defendants' Reply Brief); see also Exhibit O (Amicus brief submitted 
by 80 law professors in support of Plaintiffs).
---------------------------------------------------------------------------
Our request for a Preliminary Injunction during the Delay on Appeal
    In February, we filed a motion to the Ninth Circuit Court of 
Appeals seeking an injunction to stop the actions by the U.S. 
government that are continuing to put me and other young people in 
danger by worsening climate change. Specifically, we asked:

          This Court should preliminarily enjoin, for the 
        pendency of this interlocutory appeal, Defendants from 
        authorizing through leases, permits, or other federal 
        approvals: (1) mining or extraction of coal on Federal 
        Public Lands; (2) offshore oil and gas exploration, 
        development, or extraction on the Outer Continental 
        Shelf; and (3) development of new fossil fuel 
        infrastructure, in the absence of a national plan that 
        ensures the above-denoted authorizations are consistent 
        with preventing further danger to these young 
        Plaintiffs.\12\
---------------------------------------------------------------------------
    \12\Exhibit A.

    This injunction is urgently needed because, despite long-
standing knowledge of the resulting destruction to our Nation 
and the profound harm to myself and my co-plaintiffs, the 
federal government's ongoing development of the fossil fuel-
based energy system is actively harming us and making it more 
difficult for us to ever solve this crisis. While a complete 
halt on these actions may seem like a radical request to some 
of you, scientists tell us that nothing short of stopping these 
kinds of additional fossil fuel development can avert the worst 
effects of climate change, and prevent us from entering a 
period of irreversible baked-in, or runaway, heating. I wish 
incremental actions were enough, but the government's long-
standing actions perpetuating a fossil fuel energy system have 
put us in this situation. But here's the upshot, our top 
experts say that neither the injunction we seek, nor our 
ultimate remedy in the case will hurt the economy. In fact, 
they say that it will help the economy and create new jobs, and 
is our only real shot at preventing our economy from tanking 
from the increasing costs of climate disasters, the enormous 
economic threats that climate change poses, and the lost 
opportunity to lead the market transition away from fossil 
fuels that other nations are outpacing us on.\13\
---------------------------------------------------------------------------
    \13\Declaration of Joseph E. Stiglitz (Exhibit I).
---------------------------------------------------------------------------

Please listen to the experts; The harm is real and is happening to us 
        now

    In Juliana v. United States, my co-plaintiffs and I are 
very fortunate to be supported by some of the world's top 
climate change science and solution experts. I've included some 
of their written expert testimony as attachments to my 
testimony and I encourage you to read them.
    According to Dr. Jerome Paulson, Professor Emeritus at 
George Washington University who submitted a declaration in 
support of our preliminary injunction filing: ``Each month that 
passes by without action by the federal government to reduce 
fossil fuel extraction and GHG emissions exacerbates this 
already grave public health emergency facing our nation's most 
vulnerable population--our children.''\14\
---------------------------------------------------------------------------
    \14\Exhibit D, p. 7.
---------------------------------------------------------------------------
    Nobel Prize-winning economist Joseph Stiglitz testified: 
``There is no urgency to promote more fossil fuels. There is no 
urgency for energy supply. There is no urgency for employment 
or economic growth. There is, however, real urgency to stop the 
climate crisis and the already-dangerous status quo from 
worsening, and to protect these young people's constitutional 
rights. There are very real and substantial societal costs and 
risks of moving forward with these fossil fuel enterprises 
while this lawsuit is pending.''\15\
---------------------------------------------------------------------------
    \15\Exhibit I, p. 15.
---------------------------------------------------------------------------
    Dr. Steve Running, Professor Emeritus at the University of 
Montana and Nobel prize winner testified: ``The Federal 
Government has for many years had knowledge, information, and 
scientific recommendations that it needed to transition the 
Nation off of fossil fuels in order to first prevent against, 
and now try to stop, catastrophic climate change. We are well 
beyond the maxim: `If you find yourself in a hole, quit 
digging.'''\16\
---------------------------------------------------------------------------
    \16\Exhibit G, p. 26.
---------------------------------------------------------------------------
    Dr. Ove Hoegh-Guldberg, Professor of Marine Studies and the 
Director of the Global Change Institute at The University of 
Queensland stated in his declaration: ``Th[e] absolute amount 
of excess heat absorbed by our oceans is tremendous: the 
equivalent of energy from approximately 1.5 Hiroshima-sized 
atomic bombs per second over the past 150 years, at-present the 
equivalent of approximately 3 6 Hiroshima-sized bombs every 
second'' (see Figure 1).\17\
---------------------------------------------------------------------------
    \17\Exhibit F, p. 4.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Figure 1: Distribution of global-warming energy accumulation 
        (heat) relative to 1971 and from 1971 to 2011. Half of the 
        human-produced global warming heat has entered the ocean since 
---------------------------------------------------------------------------
        1997.\18\

    \18\Chart is a modified version of a chart found in Nuccitelli, D. 
et al., Comment on Ocean heat content and Earth's radiation imbalance. 
II. Relation to climate shifts, Physics Letters A, Vol. 376, Issue 14 
(2012).

    Over the past month, we have heard stories on the news of entire 
towns in the midwest wiped off of the map by massive flooding events 
triggered by a historic `bomb cyclone.' Hurricane Florence, which hit 
North Carolina last fall and brought historic flooding, Hurricane 
Michael, which flattened the community of Mexico Beach, Florida in 
2018, and Hurricane Maria that decimated Puerto Rico in 2017, have 
become our new normal. These storms will only get worse unless we take 
urgent action.\19\
---------------------------------------------------------------------------
    \19\Declaration of Kevin E. Trenberth (Exhibit B).
---------------------------------------------------------------------------
    My fellow plaintiff Jayden experienced one of these climate change-
driven super storms first hand in 2016, when she woke up to find feet 
of standing water in her bedroom. Her house in Rayne, Louisiana had 
been flooded in a `thousand-year storm', yet these storms seem to be 
coming year after year. Her family is still making repairs on their 
home after three years.\20\
---------------------------------------------------------------------------
    \20\Exhibit W.
---------------------------------------------------------------------------
            Wildfire
    It's not just storms that we have to worry about. I have 
experienced firsthand how wildfire seasons extended by two and a half 
months throughout the west are shrouding our communities with smoke for 
months on end, causing innumerable respiratory health issues, and 
taxing our emergency response funds (see Figure 2). It is not just 
rural communities that are experiencing this smoke, it is urban areas 
as well. I never thought that living in the United States would come 
with air quality warnings advising me to stay inside and school and 
youth sports activities being canceled so we aren't harmed by breathing 
the air. I can't tell you how scary it is to see people walking down 
the street in gas masks in August in Seattle, which used to be the most 
beautiful time to be outside in the Pacific Northwest.\21\
---------------------------------------------------------------------------
    \21\Declaration of Steven W. Running (Exhibit G); Declaration of 
Aji. P (Exhibit X).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Figure 2: Wildfire smoke shrouds Seattle.\22\
---------------------------------------------------------------------------
    \22\Agueda Pacheco-Flores, Puget Sound air-quality warnings: Beware 
of smoke from British Columbia fires, The Seattle Times (Aug. 13, 
2018); available at: https://www.seattletimes.com/seattle-news/british-
columbia-wildfire-smoke-is-impacting-air-quality-warnings-issued-for-
vulnerable-groups/.
---------------------------------------------------------------------------
            Sea Level Rise
    If we don't make serious change now, in just a few decades some the 
largest cities in the United States will first become uninhabitable and 
then be entirely submerged, as well a vast majority of the state of 
Florida. My fellow plaintiff, Levi, will watch his family home and the 
entire island that he grew up on go underwater with just a few feet of 
sea level rise, which could hit by mid-century. He will become a 
climate refugee long before then (see Figures 3 and 4).\23\
---------------------------------------------------------------------------
    \23\Declaration of Levi D. (Exhibit Y); Declaration of Dr. James 
Hansen (Exhibit L); see also Hansen, J., et al., (2016). Ice melt, sea 
level rise and superstorms: Evidence from paleoclimate data, climate 
modeling, and modern observations that 2+C global warming could be 
dangerous. Atmos. Chem. Phys., 16, 3761 3812, doi:10.5194/acp-16-3761-
2016.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Figure 3: U.S. government sea level rise projections through 
        2100.\24\
---------------------------------------------------------------------------
    \24\Exhibit Z.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Figure 4: Sea level rise projections for southern Florida.\25\
---------------------------------------------------------------------------
    \25\Exhibit Z.

    The economic impacts of sea level rise to our country will be 
astronomical. Just 25 years from now, coastal properties in the U.S. 
worth some $136 billion will be at risk of chronic flooding. By the end 
of the century, that rises to $1 trillion in properties at risk of 
chronic flooding--not to mention the billions of dollars that would be 
lost in other sectors.\26\
---------------------------------------------------------------------------
    \26\Union of Concerned Scientists, Underwater: Rising Seas, Chronic 
Floods, and the Implication for US Coastal Real Estate (2018), 
available at: https://www.ucsusa.org/global-warming/global-warming-
impacts/sea-level-rise-chronic-floods-and-us-coastal-real-estate-
implications.
---------------------------------------------------------------------------
National Security Threat
    Many people in communities throughout the United States, including 
some along the Washington coast, are already being forced from their 
homes because of flooding and sea level rise. All of these people, and 
many more, will be displaced permanently if we do not act now. This 
displacement would in turn lead to massive geo-political 
destabilization. An expert declaration provided by retired Vice Admiral 
and Former Inspector General of the United States Department of the 
Navy, Lee Gunn, states:

          Climate change is the most serious national security threat 
        facing our Nation today. Climate change contributes to 
        increased extreme weather events, rapidly changing coastlines, 
        and conflicts over basic resources like food and water, which 
        lead to humanitarian crises with increased migration and 
        refugee flows. Climate change is a ``threat multiplier'' and 
        ``catalyst for conflict'' and directly threatens our military 
        and the ``Department of Defense's ability to defend the 
        Nation.'' Climate change poses unprecedented risks to our 
        Nation's economic prosperity, public health and safety, and 
        international stability.

    Vice Admiral Gunn goes on:

          The great danger for young people, is that they are being 
        handed a situation that is out of their control, a situation 
        made more egregious due to the fact that the Defendants have a 
        complete understanding of precisely how dangerous the situation 
        is that they are handing down to these Plaintiffs.\27\
---------------------------------------------------------------------------
    \27\Exhibit K.
---------------------------------------------------------------------------
            Public Health
    The medical community across the country is sounding alarm bells 
about the public health emergency that climate change is causing. As an 
amicus brief filed in support of my case in the Ninth Circuit, on 
behalf of 78 doctors and medical professional and 14 medical 
organizations,\28\ stated:
---------------------------------------------------------------------------
    \28\The organization are: American Academy of Allergy, Asthma and 
Immunology; American Academy of Pediatrics; American Association of 
Community Psychiatrists; American Heart Association; American Lung 
Association; American Pediatric Society; American Thoracic Society; 
Infectious Diseases Society of America; International Society for 
Children's Health and the Environment; Medical Society Consortium on 
Climate and Health; National Association of County and City Health 
Officials; National Environmental Health Association; National Medical 
Association; and Society for Academic Emergency Medicine.

          The medical community widely considers the health effects of 
        human-induced climate change, GHG emissions, and the other air 
        pollutants that are emitted when fossil fuels are combusted to 
        be significant public health threats, representing an 
        unacceptably high level of risk for the current and future 
        health of the U.S. population.\29\
---------------------------------------------------------------------------
    \29\Exhibit N, p. 8.
---------------------------------------------------------------------------
            The Targets You Set Will Matter
    What is clear now is that climate change is already dangerously 
affecting people within the United States with 1 degree of warming. It 
is not just scientists who have come to that conclusion. My co-
plaintiffs and I, along with other communities and individuals that are 
experiencing the devastating impacts I have just described, understand 
the perils of living in this climate system. The situation is only 
going to get worse if the planet becomes 1.5+C warmer than pre-
industrial levels. This is the temperature target that is called for by 
the Paris Climate Accord. It is the target called for in the Green New 
Deal, and by the countless cities, states, and climate advocacy groups 
around the country that have endorsed it. To be clear, 1.5+C of 
warming, or approximately 425 parts per million (ppm) of carbon dioxide 
in the atmosphere, is genocide, and a death sentence for human 
civilization as we know it. Even the 2018 IPCC report on the impacts of 
1.5+C concluded that allowing the globe to warm to 1.5+C will involve 
devastating impacts. Chapter 5 of the report states plainly that 1.5+C 
is not safe:

          Warming of 1.5+C is not considered `safe' for most nations, 
        communities, ecosystems, and sectors and poses significant 
        risks to natural and human systems as compared to current 
        warming of 1+C (high confidence) (see Chapter 3, Section 3.4, 
        Box 3.4, Box 3.5, Cross-Chapter Box 6 in Chapter 3).

    This body should never endorse a target that destroys Levi's island 
and much of Florida or my Puget Sound, damages the lungs of children in 
the West, decimates the rich croplands of the midwest, or floods homes 
across the country from fossil fuel-fed unprecedented storms.
    The now-pervasive 1.5+C target first appeared in the lead up to the 
2009 UNFCCC Conference of Parties in Copenhagen, Denmark (COP 15), as a 
result of the advocacy of the Alliance of Small Island States (AOSIS). 
At a time where international political negotiations still revolved 
around 2+C, AOSIS advocated for ``well below 1.5+C,'' and relied on the 
work of Dr. James Hansen, one of our experts, and his colleagues' 
research arguing that a 350 ppm CO<INF>2</INF> target was necessary to 
preserve a habitable climate.\30\ In later research, Hansen and his 
colleagues determined that 350 ppm would only lead to 1+C of long-term 
warming, which was an important target to aim for by 2100.\31\ Yet as 
time went on and contentious climate negotiations ran their course, the 
``well below'' portion of AOSIS's ``well below 1.5+C'' position was 
lost, and the world's governments settled on 1.5+C as a compromise 
goal. But they did so without any scientific support for the notion 
that we would be safe with 1.5 degrees of warming.
---------------------------------------------------------------------------
    \30\Hansen, J., et al., (2008). Target atmospheric CO2: Where 
should humanity aim? Open Atmos. Sci. J., 2, 217-231, doi:10.2174/
1874282300802010217.
    \31\Hansen, J., et al., (2013). Assessing ``dangerous climate 
change'': Required reduction of carbon emissions to protect young 
people, future generations and nature. PLOS ONE, 8, e81648, 
doi:10.1371/journal.pone.0081648.
---------------------------------------------------------------------------
    We have to ask ourselves: Are we willing to `compromise' on our 
safety and our future?
    In the long term, 1.5+C warming means melting most of the ice 
sheets on the planet and more than 70 feet of sea level rise (see 
Figure 5).\32\ The reason we know this is because this is what sea 
levels were the last time carbon dioxide levels were as high as they 
are today. According to a study by McGranahan et. al., over 600 million 
people live within 30 feet above sea level.\33\ The Fourth National 
Climate Assessment, using modest estimates of sea level rise, found 
that ``[s]ea level rise might reshape the U.S. population distribution, 
with 13.1 million people potentially at risk of needing to migrate due 
to a SLR of 6 feet (about 2 feet less than the Extreme scenario) by the 
year 2100.''\34\
---------------------------------------------------------------------------
    \32\Expert Report of Dr. Harold R. Wanless, p. 6-7 (Exhibit Z); 
Declaration of Eric Rignot (Exhibit H).
    \33\McGranahan, G., Balk, D., & Anderson, B. (2007). The rising 
tide: assessing the risks of climate change and human settlements in 
low elevation coastal zones. Environment and urbanization, 19(1), 17-
37.7.
    \34\U.S. Global Change Research Program, ``Ch. 8 Coastal Effects'', 
Fourth National Climate Assessment, Volume II, Impacts, Risks, and 
Adaptation in the United States 335 (2018), https://
nca2018.globalchange.gov.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Figure 5: Map of the south Atlantic and Gulf coasts showing the 
        inundation that would occur with 70 feet of sea level rise.\35\
---------------------------------------------------------------------------
    \35\Exhibit Z.

    All of these people, and more, will be displaced if we allow the 
1.5+C target to remain in place. Even the 2018 IPCC report plainly 
states that 1.5+C warming is not safe, but governments and groups 
continue to push us towards this disaster. At 1.5+C we also lose the 
worlds coral reefs and ocean life becomes threatened, meaning our food 
sources disappear and the rich biodiversity of our planet crashes.
    The writing is on the wall: this body needs to look beyond the 
arbitrary 1.5+C target for one that is based in the best available 
science, and that will allow us to avoid the most grievous impacts of 
climate change. Scientists tell us that 1+C (350 ppm CO<INF>2</INF>) is 
the maximum level of long-term warming that our civilization can 
survive this century. And we likely need to return even closer to 
preindustrial CO<INF>2</INF> levels of 280 ppm over the longer term. So 
why aren't we acting like it?
    Is it radical to seek integration of all schools instead of just 
some? Is it radical to stand up for the rights of children and future 
generations? Is it radical to want to stop the danger we face? Is it 
radical to want to save what you love?
A Remedy is Still Possible but the Window is Closing
    We have the technology to follow the path of emissions reductions 
the experts say we need to in order to have a chance at health and 
survival for us and our planet. It is within reach to transition to a 
decarbonized energy system by 2050, and to increase natural carbon 
sequestration through reforestation and sustainable agriculture to 
bring us back to 350 ppm by the end of the century.\36\ The U.S. needs 
to do its part in the world to make that happen. It will not happen 
without us.
---------------------------------------------------------------------------
    \36\Declaration of Mark Z. Jacobson (Exhibit C); Declaration of 
James H. Williams (Exhibit J); Exhibit V.
---------------------------------------------------------------------------
    While many critics often cite the expense of a transition to 
renewable energy, experts expect a transition off of fossil fuels would 
have a minimal increase on national energy costs, and the costs would 
be well below the historic spikes in energy costs due to volatile 
fossil energy prices (see Figure 6).\37\ This temporary increase in 
energy system costs is trivial compared to the oppressive costs we can 
expect if we continue to stumble our way into an unmitigated climate 
catastrophe.
---------------------------------------------------------------------------
    \37\Exhibit V.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Figure 6: Total spending on the U.S. energy system represented 
        as a percentage of GDP. Historical spikes from the 1970s oil 
        crisis and high oil prices in 2006 2010. Modeled variations on 
        the right illustrate the cost of multiple scenarios that 
        transition the U.S. off of fossil fuels by 2050.\38\
---------------------------------------------------------------------------
    \38\Williams, J. et al. Assessing the feasibility of 350 PPM 
CO<INF>2</INF> targets in the United States. 2019.

    Because CO<INF>2</INF> is the primary driver of climate 
destabilization, all government policies regarding CO<INF>2</INF> 
pollution and CO<INF>2</INF> sequestration should be aimed at reducing 
global COCO<INF>2</INF> concentrations below 350 ppm by 2100. Other 
greenhouse gases should also be reduced as much as possible and as 
rapidly as possible. Time is running out. We can no longer afford to 
base greenhouse gas reduction targets, with tangible consequences for 
life and death, on politics rather than science.
    We are at a critical juncture--never in my life have I seen so much 
momentum to address the climate challenge. We must not waste this 
energy, and as such, we must reevaluate our goals and where they are 
coming from. We can't truly succeed if we're relying on targets based 
on political compromise instead of the best available science.
    We have a fundamental right to a liveable future, and that future 
requires us to limit global warming to 1+C by the end of the century.
Long-Standing Government Knowledge
    My involvement in the Juliana lawsuit has given me insight into the 
injustices of climate change, and a better understanding of the United 
States Government's responsibility for it.\39\ In preparing our case, 
we uncovered documents that show us that the Government has known about 
the threats of carbon dioxide for more than half a century. One of my 
co-plaintiffs, Alex, uncovered a 1961 letter to President Kennedy, 
where U.S. Senator Clinton Anderson voices the predictions of 
scientists about catastrophic climate change and sea level rise due to 
fossil fuel CO<INF>2</INF> emissions.\40\ Just a few years later, 
President Lyndon B. Johnson received a more pointed warning in a report 
from noted climate scholar Charles David Keeling, and dozens of 
university researchers, that ``man is unwittingly conducting a vast 
geophysical experiment,'' by burning fossil fuels.\41\ This 1965 White 
House report clearly outlined the connection between the burning of 
fossil fuels and climate change (see Figure 7).
---------------------------------------------------------------------------
    \39\Expert Report of James Gustave (``Gus'') Speth (Exhibit U).
    \40\Exhibit BB.
    \41\Report of the Environmental Pollution Panel President's Science 
Advisory Committee, Restoring the Quality of our Environment (1965); 
available at: https://babel.hathitrust.org/cgi/pt?id 
=uc1.b4116127;view=1up;seq=11.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Figure 7: Cover of 1965 Restoring the Quality of our 
---------------------------------------------------------------------------
        Environment report.

    Back in September 1969, Daniel Patrick Moynihan, Urban Affairs 
Adviser to President Nixon, wrote White House counsel John Ehrlichman 
stating that CO<INF>2</INF> emissions resulting from burning fossil 
fuels was a problem perhaps on the scale of ``apocalyptic change,'' 
threatening the loss of cities like New York and Washington D.C. from 
sea level rise. The 1969 Moynihan Letter urged the Federal Government 
to immediately address this threat. Moynihan wrote that it was ``pretty 
clearly agreed'' that carbon dioxide content would rise 25 percent by 
2000. ``This could increase the average temperature near the earth's 
surface by 7 degrees Fahrenheit. This in turn could raise the level of 
the sea by 10 feet. Goodbye New York. Goodbye Washington, for that 
matter.''\42\
---------------------------------------------------------------------------
    \42\Exhibit CC.
---------------------------------------------------------------------------
    Despite these warnings, and the many more that followed, our 
nation's leaders actively perpetuated climate change by permitting 
fossil fuel extraction on public lands and subsidizing fossil fuel 
extraction (see Figure 8).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Figure 8: U.S. fossil fuel production and CO2 concentration for 
        every presidential administration since President Truman.\43\
---------------------------------------------------------------------------
    \43\Exhibit U.
---------------------------------------------------------------------------
Historical Precedent for Our Case and Our Unalienable Rights
    The Juliana v. United States lawsuit is not without precedent. In 
fact, it has ample support in the historic record, and even in the 
words of the Framers of the U.S. Constitution. According to expert 
historian Andrea Wulf, there are deep roots to the constitutional right 
to a stable climate. In her expert report, she discusses how the 
Founders believed that ``Nature is the domain of liberty,'' linking 
national ``happiness, dignity, and independence'' to the quality of the 
lands. She goes on the discuss how James Madison's speech of 1818 was 
``emblematic of how deeply rooted the importance of nature in balance 
was to the Framers and to the young nation'':

          Madison was the first American politician to write that `the 
        atmosphere is the breath of life. Deprived of it, they all 
        equally perish,' referencing animals, man and plants. He spoke 
        of the balanced composition of the atmosphere and the give and 
        take of animals and plants, which allowed the atmosphere the 
        aptitude to function so as to support life and the health of 
        beings, according to nature's laws.\44\
---------------------------------------------------------------------------
    \44\Exhibit AA.

    The Framers adopted John Locke's philosophy (``laws human must be 
made according to the general laws of Nature . . . otherwise they are 
ill made'') that human laws must conform to nature's laws for the 
preservation of humankind. As such, Thomas Jefferson wrote extensively 
about this concept, stating ``that our Creator made the earth for the 
use of the living and not of the dead . . . that one generation men 
cannot foreclose or burthen its use to another.''\45\
---------------------------------------------------------------------------
    \45\Thomas Jefferson to Thomas Earle, Sept. 24 1823, The Writings 
of Thomas Jefferson vol. VII, 310-11 (H.A. Washington ed. 1854).
---------------------------------------------------------------------------
    All of these examples clearly demonstrate the fact that, while the 
Founding Fathers were unable to foresee the grave threat of human-
caused climate change hundreds of years ago, they nevertheless intended 
to enshrine the protection of the public trust into our nation's 
constitution, and to ensure the fundamental right of present and future 
generations to access to the natural resources that previous 
generations benefitted from, and on which human survival depends.
    Wulf goes on to reference other American presidents who have voiced 
the Government's responsibility to preserve the natural world for 
future generations, such as Theodore Roosevelt, who said:

          The function of our Government is to insure to all its 
        citizens, now and hereafter, their rights to life, liberty and 
        the pursuit of happiness. If we of this generation destroy the 
        resources from which our children otherwise derive their 
        livelihood, we reduce the capacity of our land to support a 
        population, and so either degrade the standard of living or 
        deprive the coming generations of their right to life on this 
        continent.\46\
---------------------------------------------------------------------------
    \46\Exhibit AA.
---------------------------------------------------------------------------
In Conclusion
    Growing up with the looming threat of climate change has had 
lasting impacts on my mental health. Thinking about the future has been 
a constant source of anxiety and depression for me. I have felt as if 
there is a pressure cooker boiling over inside of me. I can hardly 
focus at times because I am overwhelmed with existential horror about 
the fate of planet.
    I am a child of abuse. I know the feel of it on my skin and deep in 
my psyche. And what my government is doing to perpetuate indefinitely 
fossil fuel energy, and not take urgent comprehensive action to try to 
stop climate change, is a form of abuse on young people, who don't have 
the votes or the lobbying money to stop it. But we cannot just sit back 
and take it. Not anymore. Government actions that ramp up the danger, 
hurt our health, destroy our homes, endanger our communities, and scar 
our emotional wellbeing must stop.
    My climate change-induced state of panic is not uncommon amongst my 
peers. According to Dr. Lise Van Susteren, another expert on our case 
and an Advisor for the Harvard Medical School Center for Health and the 
Global Environment, ``it is the emotional toll of climate change that 
is even more catastrophic, especially for our children. It has the 
capacity to destroy children psychologically.''\47\
---------------------------------------------------------------------------
    \47\Exhibit M, p. 4.
---------------------------------------------------------------------------
    In Judge Aiken's 2016 opinion, she cites the Supreme Court when it 
wrote in Obergefell v. Hodges:

          The nature of injustice is that we may not always see it in 
        our own times. The generations that wrote and ratified the Bill 
        of Rights . . . did not presume to know the extent of freedom 
        in all its dimensions, and so they entrusted to future 
        generations a charter protecting the right of all persons to 
        enjoy liberty as we learn its meaning. When new insight reveals 
        discord between the Constitution's central protections and a 
        received legal stricture, a claim to liberty must be 
        addressed.\48\
---------------------------------------------------------------------------
    \48\Exhibit S.

    Today I am telling you, Judge Aiken was right: ``the right to a 
climate system capable of sustaining human life is fundamental to a 
free and ordered society.''
    I didn't become a climate activist because I like shouting outside 
of Government buildings or because I want to put my body on the line to 
block a tar sands pipeline.\49\ I became a climate activist because I 
know that it is my moral responsibility to do everything in my power to 
stop catastrophic climate change. Your generation and the ones before 
you, sitting in your seats in positions of power, have decimated our 
planet. My words stand before you, representing the voices of millions 
of children, youth and future generations, who are trying to clean up 
the mess of our forebears. For years, the federal government and the 
same adults who created the disaster have marginalized us. No more. 
Climate change is here now. Waiting for the future is already too late.
---------------------------------------------------------------------------
    \49\Today, April 2, 2019, Judge Mary Ann Driscoll of Boston, MA 
just found that 13 people acting in civil disobedience to protect our 
climate from more fossil fuel projects were found not responsible in 
light of their necessity defense that their actions were necessary to 
protect life. http://www.climatedisobedience.org/
raw_audio_westrox_climatetrial_27march2018.
---------------------------------------------------------------------------
    It is clear: Without youth leadership and a constitutional 
guidepost, legislative efforts won't save us in time. The Executive 
Branch won't even fully admit climate change is real, and its leaders 
do the bidding of the fossil fuel industry. Half measures and 
incrementalism will only modestly delay the worst impacts of climate 
change. If we want a future worth living, all three branches of our 
federal government must recognize our unalienable rights are at stake 
and work with the youth at the forefront of this movement, to guarantee 
that the constitutional right to a stable climate is recognized and 
protected in the United State of America.
    Forget about being on the right side of history. If there even are 
history books, it will be because of the efforts that we are taking 
today. Be on the side of young people right now. Act as if our 
fundamental rights to life, liberty, property and equal protection 
under the law are as important as yours, those who came before us, and 
those who will come after us. We are all connected, and the work you do 
during your terms in this powerful office, should be on the right side 
of the youth who sit before you and we ask you to stand with us.
    That is why I am asking all of you and this entire House to endorse 
the fundamental rights and the remedy sought in Juliana v. United 
States on the record, and to sign on to amicus curiae briefs in support 
of me and my co-plaintiffs, as your other colleagues have, including 
Senators Ron Wyden, Jeff Merkley, and Sheldon Whitehouse, and 
Representatives Debra Haaland, Peter DeFazio, Earl Blumenauer, and 
Rashida Tlaib.
    We all have a moral imperative. And you have a constitutional one. 
If not us, then who? If not now, then when? If not for me, do it for 
your children, and your children's children, and for all life as we 
know it. Do it because when you took office, you made an oath ``to 
uphold our Constitution'' and ``secure the blessings of liberty to 
ourselves and Our Posterity.''
    I will do my best to address any questions that you may have.
    Thank you.
                                         Aji Piper,
                       Plaintiff, Juliana v. United States,
                                   Beneficiary of the Public Trust,
                                          and the U.S. Constitution
                                exhibits
Exhibit A  Urgent Motion for Preliminary Injunction
Exhibit B  Declaration of Kevin E. Trenberth in Support of Urgent 
        Motion for Preliminary Injunction
Exhibit C  Declaration of Mark Z. Jacobson in Support of Urgent Motion 
        for Preliminary Injunction
Exhibit D  Declaration of Jerome A. Paulson in Support of Urgent Motion 
        for Preliminary Injunction
Exhibit E  Declaration of Peter A. Erickson in Support of Urgent Motion 
        for Preliminary Injunction
Exhibit F  Declaration of Ove Hoegh-Guldberg in Support of Urgent 
        Motion for Preliminary Injunction
Exhibit G  Declaration of Steven W. Running in Support of Urgent Motion 
        for Preliminary Injunction
Exhibit H  Declaration of Eric Rignot, Ph.D in Support of Urgent Motion 
        for Preliminary Injunction
Exhibit I  Declaration of Joseph E. Stiglitz, Ph.D in Support of Urgent 
        Motion for Preliminary Injunction
Exhibit J  Declaration of James H. Williams in Support of Urgent Motion 
        for Preliminary Injunction
Exhibit K  Declaration of Vice Admiral Lee Gunn, USN (Ret.) in Support 
        of Urgent Motion for Preliminary Injunction
Exhibit L  Declaration of Dr. James E. Hansen in Support of Urgent 
        Motion for Preliminary Injunction
Exhibit M  Expert Report of Lise Van Susteren, M.D.
Exhibit N  Brief of Amici Curiae Public Health Experts, Public Health 
        Organizations, and Doctors
Exhibit O  Brief of Amicus Curiae Law Professors
Exhibit P  Appellants' Opening Brief for Interlocutory Appeal
Exhibit Q  Plaintiffs-Appellees' Answering Brief for Interlocutory 
        Appeal
Exhibit R  Findings & Recommendation, Thomas M. Coffin (May 1, 2017)
Exhibit S  Opinion and Order-MTD, Ann Aiken (November 10, 2016)
Exhibit T  Opinion and Order-MSJ, Ann Aiken (October 15, 2018)
Exhibit U  Corrected Expert Report of James Gustave (``Gus'') Speth
Exhibit V  Executive Summary of EER Research
Exhibit W  Declaration of Jayden F. in Support of Plaintiffs' 
        Opposition to Defendants' Motions Dismiss
Exhibit X  Declaration of Aji P. in Support of Plaintiffs' Urgent 
        Motion for Preliminary Injunction
Exhibit Y  Declaration of Levi D. in Support of Plaintiffs' Urgent 
        Motion for Preliminary Injunction
Exhibit Z  Expert Report of Dr. Harold R. Wanless
Exhibit AA  Expert Report of Andrea Wulf
Exhibit BB  Clinton P. Anderson letter to President Kennedy (February 
        14, 1961)
Exhibit CC  Daniel P. Moynihan memo to John Ehrlichman (September 17, 
        1969)
Exhibit DD  First Amended Complaint for Declaratory and Injunctive 
        Relief
Exhibit EE  Appellants' Reply Brief for Interlocutory Appeal
Exhibit FF  Federal Defendants' Answer to First Amended Complaint for 
        Declaratory and Injunctive Relief

    Ms. Castor. Thank you, Mr. Piper.
    Ms. Zhang, you are now recognized for 5 minutes.

                   STATEMENT OF MELODY ZHANG

    Ms. Zhang. Good morning. Thank you for the opportunity to 
testify before you to tell my story about how I came to care 
about the climate crisis as an essential part of my Christian 
witness.
    My fascination with creation began ever since I started to 
speak. My first words, which were in Chinese, my heart 
language, were ``chuqu,'' which means ``go outside.'' There 
were seasons of my life devoted to poisonous frogs, another to 
Michigan birds. As a child, I was rapt with wonder, as children 
often are, with the richness and diversity of wildlife that can 
be found in God's creation. And when things got overwhelming, I 
retreated to my neighborhood parks, which served as a sanctuary 
for myself. I still do.
    The practice of the presence of God in creation opens up my 
imagination and teaches me to listen. ``Speak to the earth, and 
it will teach you, or let the fish in the sea inform you. In 
His hand is the life of every creature and the breath of all 
mankind,'' reads Job.
    The scriptures elsewhere erupt with song and mention of 
God's abiding love for every corner of creation. Genesis 2:15 
says that ``the Lord God took the man and put him in the Garden 
of Eden to cultivate it and take care of it.'' In the Hebrew, 
these two words are ``avad'' and ``shamar,'' and they appear 
often elsewhere in reference to God himself watching over and 
protecting us.
    To me, it is clear that God has entrusted this great gift 
of creation to us, with the responsibility to steward it with 
utmost intentionality.
    I love people. I can see the imago dei, the image of God, 
uniquely reflected in each person I meet. I believe that 
scripture could not be more clear about God's command to love 
our neighbors as ourselves.
    I see that Jesus shows us how much he really means this 
when he intentionally makes His home among us. He seeks to draw 
nearest to the overlooked and the underheard, the outcasts in 
society. He lovingly lays hands on people who have shunned, 
heals them and spends precious time with them. Then, Jesus goes 
so far as to sacrifice himself to the point of death to 
reconcile to himself all things so that we may have new life. I 
testify that I am moved and changed by the depth of His 
compassion towards me and all of life on earth.
    I learned for the first time that our earth was out of 
balance in my environmental science class. As I listened to the 
stories of thousands of species going extinct and how weather 
patterns were being hijacked by climate change, I was shaken to 
my core and enraged. The earth is the one home we all have, and 
it is God's very first and wonderful gift to us. I can barely 
begin to imagine how much it must hurt God's heart.
    I decided to continue exploring environmental issues at 
university. It was during this time the Flint water crisis 
unfolded right next to us in Michigan. I listened in utter 
shock and dismay as my classmates shared about their families 
having no choice but to drink and bathe in water lined with 
lead for years until the mainstream media took it up.
    We organized daily water bottle drives to be sent to the 
people in Flint. And I learned that 60 percent of their 
population was made up of people of color and 40 percent were 
under the poverty line.
    In this period of my life, I began to understand more fully 
what environmental injustice looked like played out in real-
time. I was shaken at the reality of suffering I was 
witnessing, and my heart broke for these people, my neighbors.
    Congress, today, I stand before you as climate justice 
coordinator for Sojourners, a Christian advocacy organization, 
and I serve as the co-chair for the steering committee of Young 
Evangelicals for Climate Action.
    After the Flint water crisis, I saw with new eyes that 
ecological issues are not one-off, siloed problems without 
consequence to people's lives. I continue to witness the 
upending of livelihoods that brothers and sisters are already 
facing both here in our very communities and all over the world 
as a direct result of the climate crisis.
    Just last week, historic flooding after a bomb cyclone in 
Nebraska killed three people and ravaged homes. Cyclone Idai 
killed 750 people and displaced 100,000 in South Africa. 
California wildfires last year were the deadliest, most 
destructive wildfires ever on record, and they killed 104 
people.
    I encounter these stories, and I am changed. If I do 
nothing, I am complicit. More than this, I am disobedient.
    The impacts of the climate crisis are hitting our most 
vulnerable neighbors first, the ones Jesus loved to draw close 
to. People of color, women, and people living under the poverty 
line and the young generation are already bearing the brunt of 
the climate crisis while doing the least to contribute to it. 
No wonder why young people care.
    As a Christian, I believe God calls us to a total and 
radical reimagination and transformation of our relationship 
with others and the earth. As political leaders, especially 
ones of faith, I implore you to respond faithfully and with 
full force to love God and neighbor by enacting just, 
compassionate, and transformative climate policies which rise 
to the challenge of the climate crisis.
    And we don't have a lot of time. So I invite you to dream 
beyond this deep-rooted partisanship into co-creating a world 
of wholeness together.
    And to my fellow believers in the room, we live in the era 
of the resurrected Christ. So let us practice resurrection. We 
can begin to cultivate wholeness in our communities by 
addressing the climate crisis faithfully and with full 
attention. It is a fulfillment of the commandment to love our 
neighbors as ourselves. And that is my prayer for you.
    Thank you.
    [The statement of Ms. Zhang follows:]
                               __________

                       Testimony of Melody Zhang

    Thank you for the opportunity to testify before you, to tell my 
story about how I came to care about the climate crisis as an essential 
part of my Christian witness.
    My fascination with creation began ever since I started to speak. 
My very first words--which were in Chinese, my heart language--were WZ, 
which means, ``go outside''. When I learned to read, I had stacks upon 
stacks of wildlife binders, scrutinizing over every new animal card I 
received each week. There were seasons of my life devoted to poisonous 
frogs, another to Michigan birds, and yet another to fish. As a child, 
I was rapt with wonder and curiosity--as naturally children often are--
with the richness and diversity of wildlife, plants, colors, and 
textures that can be found in God's creation. And when things got 
overwhelming, I retreated to my neighborhood parks which served as a 
sanctuary for me, a place I could communicate with God and be myself. I 
still do. The practice of the presence of God in creation opens up my 
imagination, my senses, and teaches me to listen. ``But ask the 
animals, and they will teach you, or the birds in the sky, and they 
will tell you; or speak to the earth, and it will teach you, or let the 
fish in the sea inform you. Which of all these does not know that the 
hand of the LORD has done this? In his hand is the life of every 
creature and the breath of all mankind,'' reads Job 12:7-10.
    The Scriptures elsewhere erupt with poetic song in mention of God's 
deep and abiding love and connection with every corner of creation. 
Psalm 19:1 says, ``The heavens proclaim the glory of God, the skies 
display his craftsmanship''. Genesis 2:15 says that ``the Lord God took 
the man and put him in the Garden of Eden to cultivate it and take care 
of it''. In the original Hebrew, these two words are avad and shamar, 
which mean to serve and to protect. They both appear often elsewhere in 
reference to God Himself watching over and protecting His people. How 
powerful an image this is! So to me, it is clear that God has entrusted 
this great gift of creation to us with the responsibility to steward it 
with utmost intentionality and care. The earth is the very first gift 
we are bestowed, and in fact our first commandment is to tend it and to 
take care of it.
    I love people. I can see the imago dei, the image of God, uniquely 
reflected in each person I meet. I believe that Scripture could not be 
more clear about God's command to love our neighbors as ourselves. When 
asked what the greatest commandment of all was, Jesus replies, ``Love 
the Lord your God with all your heart, soul, mind, and strength.' The 
second is this: `Love your neighbor as yourself.' (Mark 12:30-31). I 
read on and see that Jesus shows us how much he really means this when 
he intentionally makes his home on earth among us (John 1:14), then 
seeks to draw nearest to the overlooked and the underheard, the 
outcasts in society. He lovingly lays hands on people who have been 
shunned; He heals them and spends precious time with them. He tells 
provocative parables like that of the Good Samaritan, about a traveler 
who gives selflessly to lift up and nurture a complete stranger of the 
``other'' race back to life. Then, Jesus goes so far as to sacrifice 
himself to the point of death to ``reconcile to himself all things, 
whether things on earth or things in heaven, by making peace through 
his blood, shed on the cross'' (Colossians 1:15-20) so that we may have 
new life. I testify that I am moved and changed by the depth of His 
compassion towards me and all life on earth. So, I love because I am 
deeply compelled by this revolutionary, powerful love which He embodied 
and modeled for me first.
    I learned for the first time that our earth was out of balance in 
my Environmental Science class at school. As I listened to stories 
about thousands of species going extinct, entire forests being cleared, 
and how weather patterns were being hijacked by climate change, I was 
shaken to my core and enraged that we could allow--and even cause--
these things to happen. The earth is the one home we all have, and it 
is God's very first and very wonderful gift to us. I can barely begin 
to imagine how much it must hurt God's heart.
    I attended university in Michigan and decided to continue exploring 
environmental issues. It was during this time that the Flint water 
crisis unfolded right next door to us. I listened in utter shock and 
dismay as my classmates shared about their families having no choice 
but to drink and bathe in water lined with lead for years until the 
mainstream media took it up. We organized daily water bottle drives to 
be sent to the people in Flint, launched campaigns to fundraise for a 
permanent solution to fixing the corrosive water pipes, and reported on 
their stories. I learned that 60% of Flint's population was made up of 
people of color, and 40% were under the poverty line. I had heard about 
environmental issues affecting people negatively, but in this period of 
my life I began to understand more fully what environmental injustice 
looked like played out in real time. It brought urgency to what I was 
learning in school in a way nothing else did. I was shaken at the 
reality of suffering I was witnessing and my heart broke for these 
people, my neighbors. Didn't Jesus call us to love them, to look after 
their well-being? Didn't he say, ``whatever you do for the least of 
these brothers and sisters of mine, you do for me'' (Matthew 25:40)?
    Congress, today I stand before you as Climate Justice coordinator 
at Sojourners and serve as Co-Chair for the Steering Committee of Young 
Evangelicals for Climate Action. After the Flint water crisis, I saw 
with new eyes that ecological issues are not one-off, siloed problems 
without consequence to people's lives. As I grow deeper in my journey 
of loving God and neighbor as self, I continue to witness the upending 
of livelihoods that my brothers and sisters are already facing--both 
here in our very communities and all over the world--as a direct result 
of the climate crisis. Just last week, historic flooding after a bomb 
cyclone in Nebraska killed three people and ravaged entire homes. The 
catastrophic Cyclone Idai killed 750 people and displaced 100,000 in 
Mozambique, Zimbabwe, and Malawi. California wildfires last year were 
the deadliest, most destructive wildfires ever on record and they 
killed 104 people. I encounter these stories, and I cannot help but be 
changed. If I do nothing, I am complicit. More than this, I am 
disobedient. Indeed, we are seeing deadly, unprecedented extreme 
weather events almost on a weekly basis now, all of which are 
exacerbated and heightened by climate change. The impacts of the 
climate crisis are hitting our most vulnerable neighbors first, the 
very ones Jesus loved to draw close to. People of color, women, people 
living under the poverty line, and the young generation are already 
bearing the brunt of the climate crisis while doing the least to 
contribute to it. No wonder why young people care, especially young 
women of color like me. We are the first generation who will experience 
the most intense impacts of this humanitarian crisis, and our 
livelihoods are in jeopardy. Creation and people--both of which God 
deeply loves--are in peril and it breaks my heart. Romans 8:22-23 says, 
``The whole creation has been groaning as in the pains of childbirth 
right up to the present time. Not only so, but we ourselves, who 
have''.
    As a Christian, I believe God calls us to a total and radical re-
imagination and transformation of our relationship with others and the 
earth. We yearn toward a future vision of complete reconciliation for 
all of God's created order. As political leaders, especially ones of 
faith, I implore you to respond faithfully and with full force to love 
God and neighbor by enacting just, compassionate and transformative 
climate policies which rise to the challenge of the climate crisis. And 
we don't have a lot of time. That is why it takes courage, and the 
creativity, energy, and moral leadership of young people like us. 
Congress, I invite you to dream beyond this deep-rooted history of 
partisanship into co-creating a world of wholeness together. To my 
fellow believers in the room, we live in the era of the resurrected 
Christ. So then. Let us practice resurrection. We can begin to practice 
the cultivation of wholeness in our communities by addressing the 
climate crisis faithfully and with the full attention it demands of us. 
It is a tangible fulfillment of the commandment to love our neighbors 
as ourselves. That is my prayer for you. Thank you.

    Ms. Castor. Well, thank you all very much for your 
passionate and insightful testimony.
    I recognize myself for 5 minutes for questions.
    You all have given voice to the fact that climate change is 
one of the most urgent, complex challenges humanity has ever 
faced. We must wrap our heads around it. We have to wrap our 
heads around the scale of the problem and the potential 
consequences of failing to rise to the challenge.
    As a result, some people react to the crisis with fear and 
apprehension and even despair. And those are understandable 
feelings. But in recognizing a crisis, Americans can rise to 
the occasion. We can come together to see our way to solutions. 
The witnesses we have just heard from have found resolve in the 
face of crisis and have taken action to be part of the 
solution.
    So I would like to ask each one of you, where do you find 
hope and optimism in the face of such a daunting problem?
    Mr. Suggs, will you start?
    Mr. Suggs. Yes, ma'am. Thank you, Chair Castor.
    I believe that I find my most hope and my optimism in the 
faces of people in my community. I have seen how resilient and 
how responsive we have been to these natural disasters that 
affect us so extremely.
    Hearing the stories of how Hurricane Floyd in 1999, the 
year before I was born, devastated so much of my community but 
how people immediately went back and tried try to rebuild. 
People stayed in Kinston and started businesses and homes 
elsewhere in the community. They loved our community so much 
that they did not allow the catastrophic flooding from Floyd to 
overall destroy them.
    And then when Hurricane Matthew hit in 2016, I remember 
standing on a picnic table right along the banks of the Neuse 
River. And I and my organization, Kinston Teens, organized a 
prayer gathering and a volunteer rally to bring our community 
together. This was the day after the hurricane hit but in the 
days before the flooding. And I stood on top of a picnic table. 
There were around 350 people surrounding me--all walks of 
faith, all walks of life, all races, all political parties, 
everything. We came together in prayer, and we immediately 
started volunteering, preparing sandbags placed in front of 
homes and businesses and doing whatever we could to help our 
community prepare for the floods.
    And that is where I see my optimism coming from, that is 
where I get my faith from: just from how resilient my community 
has been in spite of all the challenges.
    Ms. Castor. Ms. Cooper.
    Ms. Cooper. I wholeheartedly agree with what Mr. Suggs 
said. And I think I am most hopeful when there is a vision.
    I was just reading the proverb on the wall that says, 
``When there is no vision, the people perish.'' And in 
Louisiana, that is what we are really learning to embrace.
    I work for the Governor's Office of Coastal Activities, and 
I am so encouraged just to see the plan that we have, the work 
that we are doing, to go to these sites to see new barrier 
islands that we are building, new wetlands that we are 
building, and people who can live in their communities in south 
Louisiana because of this vision that we have.
    And I think a vision for Louisiana and a vision for our 
whole nation is so important in this way, because without that 
our people will perish and our people of Louisiana will perish 
as well.
    Ms. Castor. Mr. Piper, you expressed a bit more frustration 
in your remarks, but what do you want to see?
    Mr. Piper. I would say that the hat hasn't dropped, so to 
speak, on the climate crisis. We still have time to act. And so 
I will not feel despair, because we haven't failed yet.
    Ms. Castor. Ms. Zhang.
    Ms. Zhang. I am definitely energized by the creativity and 
the joy that young people bring to this movement. I was just at 
the climate march, the youth climate strikes, a few weeks ago, 
and there was just a palpable joy there. And people--there was 
color, and there was fun, and there was dancing, part of it.
    And I think that is why we are sustained in our movement, 
is that we know when to have fun and to not make light of the 
issue but really to be able to sustain us for the long run.
    Ms. Castor. You know, if you want to be spurred into 
action, you may want to pick up the new book, ``The 
Uninhabitable Earth: Life After Warming'' by David Wallace-
Wells. I have been reading it on the airplane going back to 
Florida.
    The author points out in the book that the majority of 
carbon emissions from fossil fuel combustion have occurred 
since ``Seinfeld'' premiered 30 years ago in 1989 and that we 
have 30 years to turn it around.
    But I am not sure that we have that long. The IPCC has 
concluded that we must reach net-zero carbon emissions by 2050 
in order to have a chance to keep warming below the significant 
level. So for every bit of extra warming, the world will 
experience more heat waves and heavy precipitation events, sea-
level rise, species loss.
    2050 is just 31 years from now. All of you will be about 
our age, the age of us on the dais. And I really appreciate 
everything that you have said today to help spur us on to 
action and kick off our first hearing.
    With that, I will recognize the ranking member for 5 
minutes for questions.
    Mr. Graves. Thank you, Madam Chair.
    And I want to say thanks again to all of you for being 
here, and I appreciate your testimony.
    And, Mr. Suggs, having been through numerous disasters, I 
really want to commend you for your work. One of the most 
uplifting things you can do is go to someone who is a disaster 
victim and offer them a helping hand. And it is the most 
important thing that you can do, is to just offer folks help, 
offer them assistance. Folks are often looking around trying to 
figure out where to even start.
    And so I really want to commend you, recognizing that you 
were impacted by the disaster, but rather than sitting around 
licking your wounds, you actually lifted those up. And so thank 
you very much. A huge, huge impact on communities, having been 
through many disasters myself.
    You know, I want to ask each of you a question. One of the 
challenges we have here in this committee is we have to 
recommend actions. We have to recommend what actions the 
Congress should take in changing laws and policies. And there 
are so many things. We could probably go around this room, and 
we could probably get hundreds of different recommendations. 
And so one of the things we need to do is we need to determine 
which of those actions actually make the most sense, which of 
them are going to have the biggest impact, looking at 
tradeoffs.
    Do you believe that we should apply some type of criteria 
to our decisions, looking at which recommendations we are 
making are actually going to have the biggest impact on 
temperature or sea rise, and also take into consideration 
looking at economic impacts, if, for example, one 
recommendation would have dire economic consequences? If there 
is another one that can achieve the same objective but not have 
as dire economic consequences, I mean, don't you think we 
should consider--or do you think we should consider things like 
that before we make recommendations?
    Mr. Suggs.
    Mr. Suggs. Thank you, Ranking Member Graves.
    I absolutely do believe in practicality. I believe that, 
when it comes to policy, when it comes to legislation, when it 
comes to any type of action items that are taken on behalf of, 
you know, such a large country as the United States, we do need 
to think of all the logistics. We need to make sure that we are 
not making matters worse in any capacity.
    So, considering the issues that we faced in Kinston, for 
example, I do want some ambitious action to be taken, but I 
don't want anything to happen that may disparage my community 
even more or disparage another community on the other side of 
the country. So I definitely believe in practicality.
    Mr. Graves. Thank you.
    Ms. Cooper? Quickly, do you have----
    Ms. Cooper. Yes. I agree, I think economic implications can 
be a large consequence of climate action. And so I think what 
is most important is working on both sides of the aisle in a 
nonpartisan, bipartisan manner to implement these policies that 
we are working towards in this committee and the ideas that we 
are working towards.
    Mr. Graves. Thank you.
    Mr. Piper.
    Mr. Piper. Yes. Thank you for this question.
    I am mostly in agreement that economics definitely must be 
considered, seeing----
    Mr. Graves. And let me clarify the question. I am sorry. 
Economics is one, but also just looking at the efficacy of 
these recommendations. If we are making a recommendation, 
should we evaluate, you know, sort of what impact it is going 
to actually have in terms of the environment, looking at 
temperature changes, looking at sea rise and things like that? 
So not just economic, but actually looking at and quantifying 
the types of, you know, say, benefits that these 
recommendations would yield.
    Does that make sense?
    Mr. Piper. Yeah, that makes--well, I was saying that 
economics obviously must be considered, but I think, more 
importantly, recommendations must be made following science and 
what scientists say is needed to protect the natural resources 
and to avoid dangerous effects of climate change. And I think 
that definitely must be considered when making recommendations.
    Mr. Graves. Thank you.
    Mr. Piper, I will actually ask you one other question. I 
read through all of your testimony. That was long. I want to 
make sure I understand one thing about your recommendations.
    As you know, under Paris, there were targets that were 
established under the previous administration. Do you believe 
those targets are appropriate, or do you think that--no, you 
don't?
    Mr. Piper. No, those--so the targets in Paris, the 1.5-
degree Celsius global warming kind of cap that they have will 
actually lead to catastrophic disaster. And so we cannot hold 
those as a standard if we are to take any actual action on 
climate change.
    So, while it may seem like they are really radical or 
positive kind of caps or targets, they are not as----
    Mr. Graves. Aggressive.
    Mr. Piper [continuing]. Aggressive as they need to be.
    Mr. Graves. And so, fair to say, your perspective, that you 
wouldn't support Paris targets because you think they should be 
more aggressive than Paris?
    Mr. Piper. Yes. But I still recognize that it is a step in 
the right direction.
    Mr. Graves. Thank you.
    Ms. Zhang, I apologize, but very quickly, if you could 
respond.
    Ms. Zhang. Absolutely. I believe as Christians we are 
called to bold and compassionate action, and sometimes, you 
know, that takes courage.
    I know that solar energy already employs more than coal, 
oil, and natural gas combined. So it is definitely not either/
or, but it can be both/and. And so it is a boost for the 
economy. And 70 percent of the American public are concerned or 
very concerned about climate change.
    Mr. Graves. Thank you.
    Thank you, Madam Chair.
    Ms. Castor. Thank you.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Chair Castor and Ranking Member 
Graves.
    And thank you to all of our witnesses. And I also want to 
especially welcome the other students and children who are here 
at this hearing today.
    You know, I represent a district in Oregon, and in the 
Pacific Northwest, we know climate change is not a distant 
threat; it is reality. We have had smoke from wildfires. We 
have acidic oceans that are threatening the shellfish industry; 
decreased snow pack limiting access to skiing and snowboarding, 
and that is affecting our outdoor recreation industry. Droughts 
and extreme weather patterns affect our agriculture community. 
We are concerned about warmer temperatures in the Columbia 
River further endangering salmon. And rising sea levels, of 
course, on our coast threaten homeowners and small businesses.
    So the science is clear, and the consequences for continued 
inaction are serious.
    And, you know, we have talked a little bit about the 
Intergovernmental Panel on Climate Change report, and then, of 
course, the Fourth National Climate Assessment. Some people say 
those were wake-up calls. They are more than that. They are 
alarming.
    I am glad we are starting this committee's work by 
highlighting the efforts of young leaders across the country, 
reaffirming the urgency of taking action.
    And, Mr. Piper, thank you for your leadership on the 
Juliana case to hold the federal government responsible for 
failing to act on climate change.
    I know that one of your advisors is Dr. James Hansen. And 
when we are talking about--Chair Castor mentioned something 
about 30 years. Dr. Hansen was one of the first experts to 
testify in Congress about climate change, and the year was 
1988. It could have been in this room, because this is the 
Science Committee room, and he was with NASA at the time.
    I remember 1988 well, because that is the year my son was 
born. He is now 30. So when we look at when the first testimony 
was here in the U.S. House--and 30 years have passed. And so I 
think it is a lesson for us that we must heed the call.
    And so I am inspired by your work and your advocacy 
especially, Mr. Piper, in my home State of Oregon, where, of 
course, the case is filed.
    You noted that the district court found the right to a 
climate system capable of sustaining human life is fundamental 
to a free and ordered society. That is from the opinion, 
district court opinion. And a stable climate system is quite 
literally the foundation of society.
    So you mention in your testimony that it should be the 
responsibility of all three branches of government, not just 
relying on the courts. So can you expand a little bit about 
that? If the case is pending in the courts, why shouldn't we 
let the courts decide? Why should we take action in Congress?
    Mr. Piper. So the courts don't make the laws--first, sorry. 
I want to thank you for the question.
    Ms. Bonamici. That is okay.
    Mr. Piper. But the courts don't make the laws. And, you 
know, they interpret the laws. But we need laws and policy to 
be made in order to move forward on this.
    And so, while in the courts what we are asking the court to 
do is recognize our rights and see the Constitution demands 
that our rights be protected and that laws need to be made, 
ultimately the laws need to be made by the legislative branch.
    Ms. Bonamici. Of course. Right. Thank you. And I certainly 
understand that and know that that is our responsibility here 
on the Select Committee. We are going to be working with 
several of the committees in making sure that we get the best 
policy.
    Mr. Suggs, you said that East Kinston is a low-income, 
predominantly black neighborhood, and the effects of natural 
disasters exacerbated by climate change are often compounded 
with limited access to food, hospitals, medical supplies.
    So it is really inspiring to hear about your work. What can 
we do at the federal level to support vulnerable communities 
like yours to help you prepare and cope with the effects of 
climate change?
    Mr. Suggs. Thank you so much, Ms. Bonamici.
    I believe that there are so many different approaches we 
can take: one definitely addressing the human impact on the 
environment, reducing emissions and things of that sort; but, 
also, doing things on a more local and really immediate level, 
implementing some flood-mitigation efforts.
    Because there are so many communities and neighborhoods 
like mine that are located in low-lying areas along the banks 
of rivers and along the Outer Banks of North Carolina that 
could use some efforts to mitigate the floods, to prevent our 
rivers and banks from overflowing. So there are so many efforts 
that could be taken when it comes to that approach as well.
    Then, also, investing in economic development and education 
to help empower the people in those communities to come up with 
solutions themselves as well. Because it is a multiple way 
approach that I believe could really make a difference in our 
community.
    Ms. Bonamici. Thank you so much.
    And I want to again thank all the witnesses who are here.
    When I think back to that year, 1988, when James Hansen, 
NASA scientist, was here testifying about climate change, let 
us not think about the future and looking back and saying they 
did nothing. Let this be the time that we take action. Let this 
be the year, let this be the Congress when we heed that call. 
Because it is about your future; it is about the future of the 
next generation and the generations to come.
    So thank you for your leadership, Chair Castor, and I yield 
back.
    Ms. Castor. Thank you very much.
    Mrs. Miller, you are recognized for 5 minutes.
    Mrs. Miller. Thank you, Madam Chairman. And thank you all 
for being here today.
    As many of you may be aware, my home State of West Virginia 
is abundant in natural resources. Coal and natural gas from 
West Virginia help fuel the world and create good paying jobs 
for my constituents. I have seen the devastation that a top-
down, one-size-fits-all government approach can cause.
    We saw this with the war on coal from the Obama 
administration. The decimation of the coal industry in my State 
ravished our economy, particularly in the southern part of the 
state. It created great hopelessness and ultimately led to the 
rise in our opioid crisis. My district is slowly recovering.
    The heavy hand of the federal government has consequences, 
and it can ruin communities. This is why I want to empower our 
state and local governments, as well as our communities, as we 
seek to find solutions and policies for our environment.
    Ms. Cooper, given your experience in state government, what 
are some of the policies and regulations on the federal level 
that make it difficult to start and complete restoration 
projects?
    Ms. Cooper. Thank you for the question, Mrs. Miller. I 
think on the state level with our coastal protection and 
restoration that we are doing in Louisiana, we have a whole 
agency that just is dedicated to this with state-of-the-art 
coastal scientists modeling systems and engineers that are 
working on this issue.
    But I think a problem that we face a lot is in permitting 
on the federal level and with funding. Those would be two of 
our main problems. Funding in that we don't receive all of the 
money from offshore oil that we would like to fund our 
restoration projects.
    And then on the permitting side, these processes are long 
and arduous, and they take years to get through. And when we 
are trying to restore the environment, it is challenging to 
wait this long, because you know the wetlands continue to 
degrade more and more as we wait in these permitting processes 
and as this takes longer. So if we can get that done faster, 
then we can restore even more wetlands.
    Mrs. Miller. So removing some of the red tape is what you 
are saying, in essence?
    Ms. Cooper. Yes.
    Mrs. Miller. Okay. What are some of the ways the Federal 
Government can be a better partner to help our state and local 
governments?
    Ms. Cooper. As I mentioned with the offshore revenue 
sharing, we are a part of this partnership called GOMESA 
funding from offshore revenue that happens from the Gulf Coast. 
And we are responsible for a large portion of the offshore oil 
and revenues that come to the federal government. And I think 
if we were allocated our proper amount, in that we would be 
able to fund more restoration projects that we are working on.
    Mrs. Miller. Okay. Thank you.
    And what are some best practices, in your experience, that 
the State of Louisiana has implemented to preserve the 
environment without costing jobs in the energy industry?
    Ms. Cooper. Right. So as you know, coming from West 
Virginia, our economy as well is heavily reliant on the 
industry that surrounds us. So we find it most successful to 
partner with the industries that we are working with.
    We receive a lot of our funding from state mineral 
revenues, from offshore oil, like I had mentioned, and from oil 
spill compensations. And so we find this partnership works best 
for us, because we couldn't do restoration on the scale that we 
do without receiving the funding that we do through these 
programs. So I think developing those partnerships and learning 
to work in a compromising manner is really the only way that we 
can provide long-term solutions to this problem.
    Mrs. Miller. And you are using innovation in that equation 
as well?
    Ms. Cooper. Yes, yes. Definitely.
    Mrs. Miller. All right. Thank you so much.
    Madam Chair, I yield back my time.
    Ms. Castor. Thank you.
    Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Well, thank you, Madam Chair, for bringing 
these young leaders as our first hearing of the select 
committee to remind us that we are dealing with a crisis. If 
you believe that we have the luxury of time, if you believe 
that we have the luxury of incrementalism, I would submit that 
you are in the wrong room and probably in the wrong century.
    Just last month, I joined students at Casa Grande High 
School in Petaluma, in my district, in a climate walkout. The 
first time I have ever encouraged kids who were skipping 
school. But they were engaging in civil disobedience, or what 
our colleague Congressman John Lewis might call good trouble. 
And the reason why is very clear. There comes a time when there 
is an issue and a cause that is so important that you have to 
engage in some unconventional tactics. And the climate crisis 
is that issue.
    All over the country, all over the world, young people are 
finding their voices on climate change. And I thank the 
witnesses today for offering their voices and calling on those 
of us in office to heed that call. This level of engagement and 
activism is one of the best things that I have seen in my many 
years of beating my head against the wall on this issue. And 
trust me, I have been at it for a while.
    Just as the youth of the 1960s became the fulcrum of change 
for ending segregation for civil rights, for voting rights, I 
think the students who led this walkout, and the students who 
are here and the young people who are here today, are motivated 
by the need to address climate change and its impacts in a way 
that is very similar. It reminds me of the 1960s and the civil 
rights movement.
    You are focused on the loss of coral reefs, sea level rise 
that will endanger coastal communities worldwide, food 
shortages, and many other catastrophic impacts of climate 
change. And don't let anyone tell you that your demand to have 
a livable planet for your lifetime and for your children is 
unreasonable or extreme or radical. It is really not. It is 
essential that we hear your voice.
    For the many students in my district, this is deeply 
personal. Their communities are still recovering from wildfires 
that were the deadliest and most costly in our State's history, 
a situation that will only get worse with climate change. Last 
year, California's Fourth Climate Change Assessment found 
wildfires larger than 25,000 acres could become 50 percent more 
frequent if we fail to act.
    So you are calling for swift action to stop climate change, 
and that is the right message, and I believe you are the right 
messengers. But I know that when young people call for change, 
they are often ridiculed and dismissed as being unreasonable. 
They are urged to think incrementally. That might have been the 
right conversation a few decades ago. And it was over four 
decades ago. In 1981, just down the hall in this very building, 
one of the first congressional hearings on climate change was 
held. Ms. Bonamici referenced a 1988 hearing with Dr. James 
Hansen. Well, in 1981, a Congressman named Al Gore held a 
hearing on this subject. And don't you wish that we could go 
back in time and tell the Members of Congress in that room and 
tell the world that was tuning in to that hearing, listen to 
this man. He is right. In just a few decades, we are going to 
start losing our coral reefs. We are going to have several 
multibillion dollar extreme weather catastrophes a year in this 
country. This is a real crisis, and you don't have the luxury 
of time.
    So we can't go back in time, unfortunately, and speak to 
the Congress of 1981 or the people of 1981. As the saying goes, 
the best time to plant a tree is 10 years ago, right? But the 
next best time to plant a tree is right now. And we need to 
plant a lot of trees very quickly.
    So the good news is today you are speaking to the United 
States Congress. And some folks are tuning in, I hope, on C-
SPAN, which Al Gore helped to create, by the way.
    So do you have a final word or sentence to this moment for 
the Members of Congress who are listening, for the folks who 
are tuned in on Al Gore's C-SPAN, that hopefully are listening 
this time and understand the urgency?
    I open it up to any of you to speak to that.
    Ms. Cooper. So I appreciate your statement and your 
question as well. I think in Louisiana, we see the detrimental 
impacts of a changing climate like none other. And anyone can 
see that, regardless of what political party you are, 
regardless of what industry you work in. Everyone can see that. 
All the communities that we are working with, all of the 
people. And even at a Federal level, you can see the coast of 
Louisiana degrading. And I think what I would emphasize to 
Congress is compromise, to put aside our partisanship----
    Mr. Huffman. Can I followup on that? Would you indulge the 
shortest of questions? I know I am beyond my time, but, Ms. 
Cooper, I am very moved by your passion for preventing the 
impacts and addressing the resiliency needs of the Louisiana 
coast, to you and Mr. Graves, who is a real champion on this. 
Please tell the folks back home that he is constantly beating 
this drum. My answer is, yes, let's do it. Let's act boldly to 
preserve your coastline and to build your coastal resiliency.
    But wouldn't you agree that at the same time as we do those 
things, if we are making the climate warmer by failing to 
address emissions, we are not really helping you? Would you 
agree with me on that?
    Ms. Cooper. I would, but I believe that it is all about 
compromise. I don't think it has to be zero percent oil and gas 
or 100 percent oil and gas. I think we need--what we need is a 
gradual transition. We need technological innovation that keeps 
pace with our transition away from oil and natural gas. I don't 
think it can happen overnight.
    In Louisiana, too much of our jobs and our livelihood and 
economy is dependent on this. And so I stand firmly behind 
that.
    Mr. Huffman. I appreciate that. Thank you, Madam Chair.
    Ms. Castor. And I would like to welcome Congresswoman Mary 
Gay Scanlon of Pennsylvania for joining us today and sitting 
in. So welcome.
    Now, Mr. Armstrong, you are recognized for 5 minutes.
    Mr. Armstrong. Thank you, Madam Chair. And thanks to 
everyone sitting here.
    We have a big closeup group, program in North Dakota, and 
our high school kids are out here over the course of the last 3 
weeks. And my favorite thing in the entire time I am in this 
town is when I see young people becoming engaged in things, 
whether I agree with them, disagree with them, or anything. I 
think it is fantastic. I think you bring perspective that we 
oftentimes lack hearing from when we are in this town.
    And so as we go through this--I am from North Dakota. We 
have kind of--we produce the world's food, we produce the 
world's energy. So trying to figure out how you want to make 
sure that we keep these competing interests at play is 
sometimes interesting.
    So I called the smartest kid I know who I used to coach as 
a 12-year-old in baseball, and he submitted a letter which, 
when I am done, I am going to ask for unanimous consent to put 
in the record. But I know I don't always read those, so I am 
going to read--we will get you one.
    So I am just going to read the letter from my good friend, 
Tanner Hopfauf.
    Dear Congressman Armstrong, I am writing to share my input 
in response to the Select Committee on the Climate Crisis 
announced hearing entitled Generation Climate: Young Leaders 
Urge Climate Action Now.
    The hearing is described as a contrast to a typical 
congressional hearing. The committee will hear from young 
leaders who are urging policy leaders to take climate action 
now and finally address climate crisis.
    I work in the oil and gas industry in North Dakota, and I 
consider myself a young leader who would be directly impacted 
by climate action being discussed in Congress. This is a 
complex issue, so I hope the committee will consider my 
perspective, which is shared by many young leaders throughout 
the country who may not be represented at the hearing today.
    I grew up in southwestern North Dakota in the rural town of 
Dickinson. I attended K-12 here and graduated from Dickinson 
High School in May of 2014.
    While in high school, I decided I wanted to pursue a degree 
in engineering. And with the increase in activity and 
opportunities presented by the oil and gas industry, I knew 
petroleum engineering was my goal. Once I learned that the 
University of North Dakota offered a bachelor's degree in 
petroleum engineering, I applied and was accepted.
    While attending UND, I was fortunate enough to have an 
internship during each of the three summers, two of which were 
in western North Dakota. Upon graduating in 2018, I accepted a 
position with an exploration and production company and have 
been there since. My career thus far in educational decisions 
would have been drastically different were it not for the oil 
and gas industry in my community.
    My story is not unique. Before the oil and gas industry 
became established, many young adults from rural North Dakota 
were forced to look for jobs and career opportunities out of 
State after graduating. Simply put, the jobs that offered long-
term career advancement that would appeal to young adults 
entering the workforce did not exist in North Dakota. As a 
result, our rural communities were shrinking, and we are losing 
our small town culture and way of life so many had enjoyed for 
generations.
    The oil and gas industry has completely changed this 
outlook. Local citizens now have the opportunity to go to work 
and have careers in the areas they have always called home. 
This industry has provided a spark to our communities and has 
given a breath of life back to them.
    Communities that have been shrinking for many years have 
now begun to grow and prosper. People are choosing to move and 
live in rural North Dakota because of the careers that are now 
available. Additionally, local residents now have the ability 
to remain in their hometown while having successful and 
meaningful careers. The boom in the economy has provided so 
much for the individuals that are working directly in the 
industry, but it has also positively influenced the way of life 
for all citizens living in the area and even the entire State.
    Rural citizens have benefited from increased 
infrastructure, advancing education systems, and additional 
sources of entertainment. So many things that rural North 
Dakotans would have never thought possible or to be available 
in their communities now are available because of this 
industry.
    The oil and gas industry is reshaping North Dakota and the 
economy at the local and the State level. The industry has put 
North Dakota on the map and continues to provide many 
opportunities for rural North Dakotans. Without this industry, 
our economies would cease to grow, job opportunities would no 
longer be abundant, and, once again, local citizens would be 
forced to look out of State for career opportunities.
    I stand behind the oil and gas industry and will continue 
to support its involvement in the rural North Dakota 
communities. I am proud to have grown up in Western North 
Dakota. I am proud to have graduated from college in eastern 
North Dakota. And I am proud to be an active member of the 
workforce that the industry has established in North Dakota.
    The oil and gas industry in North Dakota has revolutionized 
the way we extract oil and gas from the land and has an 
incredible record of post-production reclamation. We live where 
we work and we take our environmental stewardship very 
seriously.
    And there is another paragraph, but in the interest of 
time, I would just ask for unanimous consent to enter this 
letter into the record.
    Ms. Castor. Without objection.
    [The information follows:]
                               __________

   Letter for the Record from Tanner Hopfauf to Representative Kelly 
                               Armstrong

    Dear Congressman Armstrong,
    I am writing so share my input in response to the Select Committee 
on the Climate Crisis' announced hearing, entitled ``Generation 
Climate: Young Leaders Urge Climate Action Now.'' The hearing is 
described as ``in contrast to a typical Congressional hearing, the 
committee will hear from young leaders who are urging policymakers to 
take climate action now and finally address the climate crisis.'' I 
work in the oil and gas industry in North Dakota and I consider myself 
a young leader who would be directly impacted by the ``climate action'' 
being discussed in Congress right now. This is a complex issue so I 
hope the Committee will consider my perspective, which is shared by 
many young leaders throughout the country who may not be represented at 
this hearing today.
    My name is Tanner Hopfauf, I grew up in southwestern North Dakota 
in the rural town of Dickinson. I attended K-12 here and graduated from 
Dickinson High School in May of 2014. While in high school, I decided I 
wanted to pursue a degree in engineering and with the increase in 
activity and opportunities presented by the oil and gas industry I knew 
petroleum engineering was my goal. Once I learned the University of 
North Dakota (UND) offered a bachelor's degree in Petroleum 
Engineering, I applied and was accepted. While attending UND, I was 
fortunate enough to have an internship during each of the three 
summers, two of which were in western ND. Upon graduating in May of 
2018, I accepted a full-time position with an exploration and 
production company and have been there since. My career thus far and 
educational decisions would have been drastically different were it not 
for the oil and gas industry in my community.
    My story is not unique. Before the oil and gas industry really 
became established, many young adults from rural North Dakota were 
forced to look for jobs and long term career opportunities out of state 
after graduating high school and college. Simply put, the jobs that 
offered long term career advancement that would appeal to young adults 
entering the workforce didn't exist in ND. As a result, our rural 
communities were shrinking and we were losing our small town culture 
and a way of life so many had enjoyed for generations before. The oil 
and gas industry has completely changed this outlook, local citizens 
now have the opportunity to go to work and have fulltime careers in the 
area they have always called home. This industry has provided a spark 
to our rural communities and has given a breath of life back into them. 
Communities that had been shrinking for many years before have begun to 
grow and prosper. People are choosing to move to and live in rural ND 
because of the jobs that are now available. Additionally, local 
residents now have the ability to remain in their home town communities 
while having successful and meaningful careers. The boom in the economy 
has provided so much for the individuals that are working directly in 
the industry, but it has also positively influenced the way of life for 
all citizens living in the area and even the entire state. Rural 
citizens have benefited from increased infrastructure, advancing 
education systems, and additional sources of entertainment; so many 
things that rural North Dakotans would have never thought possible or 
to be available in their communities now are because of the oil and gas 
industry.
    The oil and gas industry is reshaping North Dakota and the economy 
at the local and state level. This industry has put North Dakota on the 
map, and continues to provide many opportunities for rural North 
Dakotans. Without this industry our economies would cease to grow, job 
opportunities would no longer be abundant, and once again local 
citizens would be forced to look out of state for career opportunities. 
I stand behind the oil and gas industry and will continue to support 
its involvement in rural North Dakota communities. I am proud to have 
grown up in Western North Dakota, I am proud to have graduated from 
college in Eastern North Dakota, and I am proud to be an active member 
of the workforce the oil and gas industry has established in North 
Dakota communities.
    The oil and gas industry in North Dakota has revolutionized the way 
we extract oil and gas from the land and has an incredible record of 
post-production reclamation. We live where we work so we take 
environmental stewardship very seriously. As this committee moves 
forward, I hope they will acknowledge the excellent stewardship of our 
resources that is happening in North Dakota right now, and all the 
economic opportunities and prosperity it has created for our residents. 
Ours is a young, vibrant industry that I hope can gain more respect and 
understanding rather than be used as a scape goat to win political 
points. I am a young leader and I want my voice to be heard. Climate 
change and the policies being discussed pose a direct threat to my 
industry, and I don't want to be collateral damage in this political 
debate.
    Thank you for your work on this committee and for representing my 
voice and the voices of so many others working and thriving in western 
North Dakota.
            Sincerely,
                                            Tanner Hopfauf.

    Mr. Armstrong. Thank you.
    Ms. Castor. Thank you, Mr. Armstrong.
    Mr. Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you, Madam Chair, for putting this 
hearing together.
    And thank you to all our witnesses. You know, we always 
start off these things by thanking witnesses. And there is sort 
of a pro forma to that, and somehow it seems insufficient for 
you guys today. You deserve more than just thanks.
    You know, as a lot of people have said up here, over the 
last four decades, we have had a bipartisan consensus to do 
nothing. And that is shameful. That is bipartisan agreement, 
but it is an agreement for inaction, at least on the scale that 
is required.
    Now, some of that action may be driven by corruption, some 
is driven by denial, some is driven by cowardice. But I think 
in all cases, there are far too many in this town who are 
content to sit and wait for public opinion to force them to 
act. And acting in response to polls may make you an effective 
politician, but it is the opposite of leadership.
    What you all have done in getting to this point is 
leadership. You are shaping public opinion. You are forcing 
people to mobilize for the greater good, even if that is 
contrary to their own individual interests. And that is worth 
more than just a pro forma thing. So thank you. Thank you for 
being here and for driving that conversation. What you have 
done is leadership distilled, and what we have done so far is 
shameful.
    Now, as Mr. Piper noted, this is a first step. It is a 
small first step. But all of us on both sides of this dais is--
you know, as Robert Frost said, ``We have promises to keep and 
miles to go before we sleep.''
    So let's hold us accountable to those promises, let's hold 
you accountable to those promises, and start thinking about 
what the next steps are. As we all think about those, I want to 
start just with a little bit of advice for you all.
    I have spent my entire career trying to do something about 
climate change. First as a scientist, then as an engineer, then 
as an entrepreneur. I built a couple companies. Everything I 
ever did was built on profitably reducing greenhouse gas 
emissions.
    I used to think that dealing with climate change was a 
technology problem. Laws of thermodynamics were somehow holding 
us back. Then I thought it was an economic problem, that the 
laws of economics were somehow holding us back. And I am in 
this job now because I have come to the conclusion that it is 
the laws of the United States that are holding us back.
    Now, the good news is that is the only one of those laws 
that can be changed. So that is a cause for some optimism. But 
it took me about 20 years to come to that realization. And if 
you will humor me with some advice, it is only to hope that you 
can be smarter than I have been.
    My first piece of advice for you is do not waste your 
energy preaching to the converted. It is good for your ego. It 
will make you feel good. It is not necessary. Number two, do 
not waste your energy celebrating those who agree that climate 
change is real. They deserve no more praise than people who 
will acknowledge that their tin foil hat does not prevent the 
aliens from reading their thoughts.
    So what do you do? Lead not by persuading people who 
already are there, lead not by telling people they are immoral, 
but lead by getting people to understand that their self 
interests are aligned with your larger purpose.
    People who are motivated solely by economics like the not 
pay for fuel. People who are motivated solely by national 
security like the idea that we could have a military that 
doesn't depend on sending money to people we don't feel very 
good about. People who are motivated--they feel macho by 
getting behind the wheel of a really fast muscle car, love the 
acceleration of an electric vehicle. Meet people where they are 
and get them to go.
    And so my question for you all who have done a better job 
of leadership than we have is to maybe share in the few minutes 
we have left how you have persuaded people who disagree with 
you to act for the greater good and what we can learn from your 
experience.
    Mr. Suggs.
    Mr. Suggs. I will start. Thank you, Mr. Casten. I will 
share that I believe sharing stories is one way to really build 
bridges. And when I have opportunities to share the stories 
that are from my community and how people's lives have been 
just totally changed by these catastrophic events, I believe 
that is the way to build rapport among each other, and we see 
where we are coming from.
    And when I can hear the stories of--like the gentleman from 
North Dakota just shared about the young man who works in the 
oil and gas industry, and when we can hear those stories and 
we--I believe that is the path that we use to find compromise, 
so--but when we can share stories, I believe that is the way to 
really persuade people to hear the other perspective.
    Ms. Cooper. I appreciate your advice, Congressman Casten. 
And I find that it is important in this instance to have shared 
experiences. In Louisiana, I get to see this on a personal 
level, which I am very privileged by. But to see individuals 
and communities, as I had briefly noted before, that are losing 
their cultures, that are losing their environments every day 
already to these climate crises. And we can all see the impacts 
of intense weather events in our communities. And if not in our 
communities, then we can see this on national television. It is 
everywhere. We have disasters happening all the time. And I 
think relating to one another in that shared experience manner 
is the best way to move forward, because you can't deny that 
those things are happening.
    Mr. Casten. I think out of respect to my colleagues, I 
think we are out the time. But I appreciate your responses. And 
sorry to not leave time for all of you.
    Ms. Bonamici. [Presiding.] Thank you.
    And I want to explain. Chair Castor and Representative 
Lujan had to run to another committee where they are having 
votes on amendments and bills, so they will return.
    And at present, I would like to recognize Representative 
Levin for 5 minutes for your questions.
    Mr. Levin. Well, thank you so much. So grateful for, 
finally, the first hearing of this select committee. Grateful 
to serve and really grateful to all of you. I think my friend 
Mr. Casten said it well; you give us hope, and we are grateful 
that you are here.
    I think the work of this committee is significantly 
overdue. This is a scientific, health, political, economic, 
national security, environmental, and moral issue. My 
constituents in Southern California feel the impact of climate 
change every day in many different ways. Increased coastal 
erosion that has caused infrastructure to collapse, sea level 
rise, longer and more extreme droughts, and unprecedented 
wildfires.
    These examples are underpinned by clear and compelling 
evidence, including from institutions in my district, like the 
Scripps Institute of Oceanography. And they reinforce the 
stories that we have heard from you, both in your written 
testimony and here this morning.
    I have no doubt that what we continue to highlight here 
will just add to the overwhelming evidence that we better 
transition away to a more sustainable future, but we better do 
so in an economically productive way. And what I mean by that, 
like Mr. Casten, I had been in the clean energy industry for 
about 15 years, and it is an incredible economic opportunity, 
and we cannot lose sight of that. And it should be shared by 
all regions of this country, especially those that have been 
dependent on fossil fuels.
    As far as the heavy hand of the federal government, I would 
like to remind my colleagues of the tens of billions of dollars 
that we subsidize fossil fuels with each year. The real 
question, in my mind, is whether Americans will be using clean 
energy technologies that are developed here, that are 
researched, developed, deployed here, with American jobs and 
American ingenuity, or whether we are going to be using 
technologies that are developed and deployed first in Asia and 
Europe, and whether we are going to lead or whether we are 
going to cede our global leadership.
    So I commend you all for your leadership. It was a similar 
belief in the need to act on climate that prompted my own 
campaign for Congress after working as an environmental 
activist and lawyer for about 15 years, as I mentioned. And I 
actually began my campaign by sending my opponent a copy of the 
book, ``Climate Change for Beginners,'' which is written at 
about a third grade reading level. Everybody here should check 
it out. If you have a family member that doesn't believe in 
basic science, hand it to them.
    But the reality is that our President also denies the 
scientific consensus on climate. When he visited my home State 
of California last year in the wake of our devastating 
wildfires, he suggested we rake our forests, that would solve 
the problem.
    So, Mr. Piper, I wanted to turn to you. How would you 
respond to this current administration's omissions and outright 
denial of science?
    Mr. Piper. Thank you for the question. And I sued them.
    Mr. Levin. Well, that is--care to opine on that, sir?
    Mr. Graves. I would like to clarify for the record, you 
actually sued the Obama administration.
    Mr. Piper. That is true. That is true.
    Mr. Levin. Please do clarify for the record, Mr. Piper.
    Don't worry about that. They are voting down the way.
    Mr. Piper. Okay. Yeah. Sorry.
    On a less humorous note, on a more serious note, I think it 
is hard to honestly hold a response to such strong illogical 
climate denial, because there is not much you can say. 
Something as ridiculous as telling somebody to rake a forest in 
order to reduce the effects of a wildfire season that is out of 
our control, it blows my mind.
    But I guess in, like, honestly, when I think about how I 
respond to that, it would have to be that I place my faith in 
the proceedings of the court, in the hope that the court can 
disregard the disbelief, recognize the science and the 
constitutional obligation and the constitutional rights of the 
youth, not only my, you know co-witnesses here, but also all 
the youth across America to a livable climate and a stable 
future.
    Mr. Levin. And I was very interested, Mr. Piper, to see 
that your case highlights some of the federal subsidies for 
fossil fuels. Can you briefly expand on the role that these 
fossil fuel subsidies play in your case?
    Mr. Piper. You know, at the moment, like, right now, I 
don't have that off the top of my head, but I am actually happy 
to get back to you with that.
    Mr. Levin. That would be great.
    Finally, and if I could just run just a second or two 
longer.
    Mr. Suggs, can you talk about how the repeated flooding has 
affected Kinston's economy, small businesses, the workers who 
rely on wages from those businesses?
    Mr. Suggs. Thank you, Congressman Levin. I will say I 
mentioned it earlier in my testimony how U.S. Highway 70 runs 
right through town. It is our main business corridor. It also 
runs almost parallel with the Neuse River. So many of our 
businesses are located along that highway. If you want to get 
from our State capital to Raleigh to North Carolina's beautiful 
beaches, you have to go down Highway 70 in Kinston.
    And when hurricanes and floods hit, that entire highway is 
flooded. So millions of businesses along that highway, and 
grocery stores, restaurants, clothing stores, are under water 
and submerged. People are out of work for weeks or months while 
these businesses have to rebuild.
    Kinston in east North Carolina is also big on agriculture. 
And you have farms and migrant farmworkers and their families 
and the farmers' families who are out of work for months while 
their farmland is under water.
    So I mean, it definitely is a huge--takes a huge toll on 
our economy. People sometimes leave our community because of 
the constant flooding. So that also affects population loss, 
and that has a trickle-down effect on the economy. So there are 
so many ways that----
    Mr. Levin. Thank you, Mr. Suggs.
    To the extent that we consider the economic impacts of 
climate change, let's be fair and evenhanded about those 
impacts.
    And I yield back. Thank you.
    Ms. Castor [presiding]. Let's see. Ms. Brownley, you are 
recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chairwoman. And thank you 
for having this hearing, our first major hearing today. I can 
think of no better group of witnesses to kick off this 
committee than the young leaders sitting before us today. You 
represent, as many of us have already expressed, but you 
represent the generation that will bear the full brunt of the 
failures of our generation and previous generations to prevent 
this crisis if we do not act.
    I must say I am heartened that even and despite of the 
federal government's inaction, that all of you have expressed 
hope and still believe that the government can, in a 
nonpolitical way, truly and boldly address this climate crisis. 
So there is no question that the time to act is now.
    And I am proud to represent a district in California. And I 
believe this committee has a historic opportunity to learn from 
California's example and many other solutions that we can find 
nationwide and, quite frankly, worldwide.
    There are so many questions that I would like to ask all of 
you, but I know my time is limited. But, Mr. Piper, I am just 
so extraordinarily impressed. As you said, you sued the 
government, and I am very impressed that you were able to pull 
that together. And I understand that in your lawsuit, there 
were 21 plaintiffs that were 21 years or younger. I can't 
imagine your joy and your feeling of success when the judge 
held that--your argument that you have a due process right to a 
climate system capable of sustaining human life. It must have 
been an extraordinary moment. And the disappointment still 
continues that the case has not been fully resolved.
    But you talk about this issue. We talk a lot about the 
climate crisis with regards to its economic impact, to its 
health impact, to its national security impact. But you are 
really describing this, quite frankly, as a civil rights--
fundamentally, a civil rights issue.
    And so I wanted to ask you first if you were intentional in 
terms of having 21 plaintiffs that were 21 years or younger. 
And, if so, why? But I also wanted to ask you, if you could, 
talk a little bit more about your belief and why the climate 
crisis is so much a civil rights issue to our time.
    Mr. Piper. Thank you, Ms. Brownley, for this question. In 
regards to the ages and number of the plaintiffs, I believe it 
is just coincidence of fate, not necessarily something that is 
specific and intentional.
    And then with it being--oh, my. I honestly forgot the 
second part of your question. Could you please.
    Ms. Brownley. You have talked about the climate crisis 
being a civil rights issue. And, you know, if you could just 
talk a little bit more about that. I would like to hear the 
other panelists sort of weigh in on what their feelings are 
that this climate crisis is indeed a civil rights issue of our 
time.
    Mr. Piper. Yeah. So I think it is the--so the easiest way 
to say this is the Public Trust Doctrine, which is, in common 
law, states that the government holds a responsibility to 
protect the natural resources of the air, land, and the water 
for posterity. And when we recognize that no life on this 
planet can be held without those three natural resources, 
without having clean air, clean water, and land that is capable 
of sustaining life and growing life.
    And then specifically in regards to our Constitution, I 
believe it is the Fifth Amendment that says that the federal 
government cannot deprive its citizens of the right to life, 
liberty, and the pursuit of happiness or property without due 
process of law. And in that way, we have to recognize that the 
federal government's destruction of the environment through its 
conscious building of a fossil fuel infrastructure is a 
violation of the Constitution.
    Ms. Brownley. Thank you. Five minutes goes by quickly. 
Thank you very much, and I yield back.
    Ms. Castor. Votes have been called on the floor, but we are 
going to try to--oh, excuse me. We are in recess. Okay. Good.
    I was going to counsel everyone to be concise. But now I 
think we are okay.
    So, Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairwoman.
    Ms. Cooper, you talked about some of the issues involving 
Louisiana. And I know the focus is entirely on human activity 
and what the government ought to do in regard to human 
activity. Louisiana has been involved in some major floods, one 
a couple of years ago that caused tremendous damage. And there 
is a lot of discussion about what the federal government's 
responsibility is in that.
    Isn't it true that the Army Corps of Engineers had a study 
that lasted 20-something years, maybe 30 years, looking at 
building a diversion canal from the Comite River over to the 
Lilly basin that would largely have mitigated any problems from 
that flood or at least made the problem much more minimal than 
they were?
    Are you aware of that? Can you talk about it a little bit?
    Ms. Cooper. Yes. Thank you for the question, Mr. Palmer. I 
am not familiar specifically with that project. I can get back 
with you on the information needed afterwards.
    But I can speak to how our restoration projects and the 
projects that we are doing are all aimed at reducing flood risk 
for our communities. And I am sure, as you might have seen, we 
have flood maps for our entire coast. And we are trying to 
figure out where the biggest flood risks are now and in the 
next 50 years. We set up like a low and a high scenario of what 
could be the lowest expectations and the highest. And so we are 
trying to plan our projects around that information. And so we 
are putting projects in areas that need it the most and making 
our investments worth the most.
    But in regard to that specific project, I would be glad to 
get back with you on that.
    Mr. Palmer. Well, you don't need to, because I know a good 
bit about it. I wanted to know what you know about it.
    And the issue here is, is that I know the climate is 
changing. Climate has a history. It has always been changing. 
And there are some serious consequences from climate change 
that we need to be prepared for.
    I worked for two international engineering companies. I 
worked in environmental systems. I ran a think tank for 25 
years. And there is a fundamental principle in addressing 
issues, and that is you first have to properly define the 
problem. If you don't properly define the problem, then the 
solutions you come up with generally are going to be off the 
mark. And there are very serious consequences when dealing with 
climate change if we don't properly define the problem. If you 
put all the emphasis on anthropomorphic impact and you don't 
take into account natural variation and other issues, then we 
are going to suffer.
    For instance, there is an ice shelf in the Antarctic. Are 
you all familiar with the ice shelf, that there is some 
concerns about it? I see Mr. Piper is nodding his head.
    The last time that ice shelf broke off was 125,000 years 
ago. Okay? Any idea why it broke off?
    Some folks think it was climate change. And there is a high 
probability that that was part of it, because we have gone 
through cooling periods and warming periods. But it is also 
highly probable that it is basic physics. Because an ice shelf 
is not an iceberg. It is not displacing its mass in water. It 
is not an ice sheet on land. It extends out over the surface of 
the water. In this particular case, it is probably 5 or 6 feet 
above the water.
    And at some point, just basic physics are going to come 
into play where the weight on the end will cause it to break 
off, and it will--if it doesn't freeze back in place, whatever 
it does, once it hits the water, it is going to cause sea 
levels to rise.
    If we don't take into account the natural variations and 
that climate is changing and take action to mitigate for those 
probabilities, as they failed to do Louisiana with the Comite 
River Canal, then you are going to have some serious problems. 
If we had built that canal 30 years ago, and Mr. Graves and I 
have talked about this quite a bit, I think you wouldn't have 
had the billions and billions of dollars in damage. You 
probably wouldn't have had the loss of life and the destruction 
that you had.
    So my encouragement is for you to stay involved, but look 
at the total picture. Don't focus on just one thing.
    And with that, Madam Chairman, I will yield back.
    Ms. Castor. Thank you, Mr. Palmer.
    Mr. Lujan, you are recognized for 5 minutes.
    Mr. Lujan. Well, good morning, everyone. And, again, thank 
you to all of our witnesses today for your testimony, for the 
courage to be here today and what you are doing with your lives 
to make a positive difference, not just in our communities, but 
really having a positive impact around the world. Each of you 
has made the case that it is past time for Congress to act to 
protect the health and safety of our young people and our 
Earth. And I applaud your efforts. We agree with you, most of 
us agree with you.
    I am going to start off my remarks today by sharing a 
little data and a little bit about my age.
    In 1990, I was 18 years old. In the 29 years since, we have 
seen the impacts of climate change. To begin in the nearly 
three decades since I was the age of some of our guests here 
today, nearly half the industrial emissions that have ever been 
emitted into the atmosphere for the entirety of human history 
have been released. It has had a dramatic impact on our world.
    The polar caps then were 40 percent larger. Our seas were 
about 3 inches lower. Our entire planet has warmed, and we have 
seen a new wave of biological extinctions. Famine, natural 
disasters, negative human health. That is how I define the 
problem.
    I would say that this requires immediate action. Our 
changing planet affects our health, our food, our ecosystems, 
and our way of life, and we cannot wait for another generation 
to act.
    Ms. Zhang, I appreciate how your testimony ties 
environmental issues with issues of injustice. In Pope Francis' 
encyclical Laudato Si, he stressed the importance of protecting 
our most vulnerable from the impacts of climate change. He 
says, I quote, ``We are faced not with two separate crises, one 
environmental and the other social, but rather with one complex 
crisis which is both social and environmental.''
    The Pope goes on to recognize that we have a moral 
obligation to act on climate change for future generations and 
to protect the poor, marginalized, and those most at risk.
    So my question for you is, can you speak to why the 
religious community believes we need to reduce emissions, 
reduce pollution, and address climate change?
    Ms. Zhang. Absolutely. Thank you so much, Mr. Lujan, for 
your question. I believe that--the Bible says a good man leaves 
an inheritance for his children and his children's children. 
And I think this inheritance in terms of both abundance of 
natural and fiscal resources, I think that I--I believe that 
God is speaking word through our generation. And I think that 
the religious community cares a lot about this because it is 
directly tied to our love of God and neighbor. And we see that 
this is a humanitarian crisis that is not something 
hypothetical and is happening in the future but is already 
impacting people, people who Jesus called us to draw closest 
to, and he himself modeled that for us.
    And so that is some of the work that my organization, Young 
Evangelicals for Climate Action, and Sojourners, a Christian 
advocacy organization, focus on transformation through a 
biblical call to social justice. That is the work that we do.
    And, you know, we are called to steward the very first gift 
that we are given by God. And this is something that God cares 
a lot about. And if we take the time to know the creatures on 
Earth and to spend time in it, I think that that is--in the 
knowing, really, is where loving begins. And I think we are so 
disconnected as a society now to that original calling that it 
really--it starts from a practice of stewardship and a practice 
of a personal experience with Earth. And so that is what we 
hope to do.
    And I am in the room with Interfaith Power and Light, and 
there are numerous interreligious organizations that are 
working for this. So thank you.
    Mr. Lujan. And based on some of the earlier line of 
questioning, I have a simple question to each of you, which is 
really yes or no. Do you think that we should be doing 
everything we can to reduce pollution?
    Mr. Suggs.
    Mr. Suggs. Yes, sir.
    Mr. Lujan. Ms. Cooper?
    Ms. Cooper. Yes. I agree.
    Mr. Lujan. Mr. Piper?
    Mr. Piper. Definitely.
    Mr. Lujan. Ms. Zhang?
    Ms. Zhang. Absolutely.
    Mr. Lujan. And I hope that we don't lose sight of our 
responsibilities here as we look to find common ground to get 
this done. But we need to act. And I think that Mr. Huffman has 
highlighted the cost of inaction. And I hope that you all take 
to heart the importance of highlighting what happens if we 
don't do anything. This Congress needs to act.
    And I know the call for bipartisanship, you are not saying 
sit idly by and wait another 10 years to do something. I think, 
Ms. Cooper, you would even say, it is time to act, come 
together, find some common ground, and get to work. Would that 
be correct?
    Ms. Cooper. That is absolutely correct.
    Mr. Lujan. I appreciate that.
    I have to run down to a vote, and I will see you all a 
little bit later. Thanks for being here.
    Ms. Bonamici [presiding]. Thank you, Mr. Lujan.
    I now recognize Mr. Neguse for 5 minutes for your 
questions.
    Mr. Neguse. Thank you, Madam Chairwoman. And I also want to 
thank Chairwoman Castor who I know had to step out, but for her 
leadership and, in particular, for setting the agenda of this 
committee to have the young folks that have joined us today be 
our very first witnesses with respect to our first substantive 
meeting. I certainly appreciate her leadership.
    And I want to thank each and every one of you, as my 
colleague Mr. Casten mentioned, not in a pro forma way. I mean, 
I know that you all have traveled a great expense to 
Washington, D.C., to come visit with us today. And just know 
that your testimony is incredibly powerful, and it certainly is 
inspiring to us and to the country.
    Climate change is the existential threat of our time that 
we must begin addressing immediately. And it shouldn't be a 
partisan issue. As Congress discusses the threat of climate 
change, we cannot lose sight of what is truly at stake. The 
conversations we have now, the decisions that we make today 
will decide the quality of life for the witnesses that are 
gathered here today in front of this committee. We must choose 
to protect their access to clean air, clean water, and a stable 
climate. And this is not an abstract issue as has clearly been 
demonstrated today during the hearing. Climate change is 
staring us right in the face.
    In my home State of Colorado, I represent Colorado's Second 
Congressional District--Boulder, Fort Collins, northern 
Colorado. Over 50 percent of the district I represent consists 
of public lands. And so my constituents are already beginning 
to experience firsthand the impacts of this crisis. Increased 
flooding, erosion, rising temperatures, and faster snowmelt all 
have real-life consequences to my constituents.
    But addressing these impacts starts with an acceptance of 
science. And with great respect to my colleague on the other 
side of the aisle, with respect to his comment regarding 
defining the problem, I don't know that this committee needs to 
necessarily define the problem. The scientists, the experts 
have defined the problem for us. The IPCC determined that we 
have 12 years to ensure that the increase in global temperature 
remains below the threshold required to avoid the most severe 
impacts of climate change.
    Let me just give you a sense of some of the key findings in 
the IPCC report, that carbon dioxide is at an unprecedented 
level not seen for at least the last 800,000 years; that sea 
level is set to continue to rise at a faster rate than over the 
past 40 years. And that, yes, over the last two decades, the 
Greenland and Antarctic ice sheets have been melting, and 
glaciers have receded in most parts of the world.
    That is the science. And there are a variety of important 
recommendations from the top minds in the country on this 
issue. And despite the clear and unified voice from the 
scientific community on this issue, the administration has 
continued to propose drastic cuts to climate research funding 
and to make remarks that are blatantly false. Just this week, 
the President claimed that the noise of wind turbines causes 
cancer. And while, you know, that may be funny to some, these 
kind of claims are dangerous. When we ignore facts, when we 
ignore science, we ignore the duty that we have to future 
generations.
    And the good news is that this generation is paying 
attention. Almost every meeting I have had with young people 
since taking office 3 months ago has been about the 
environment. Last month, like my colleague, Representative 
Huffman, I joined young people in my State, in Boulder, in the 
youth climate strike, including folks from the Climate Reality 
Campus Corps at CU Boulder, Defend our Future, many other 
groups. And it was incredibly encouraging to see so many young 
people demanding action.
    And on that note, I would be remiss if I didn't also 
recognize that, as one of the original cosponsors on the Green 
New Deal, there is a group of young people that really have 
inspired the country, and certainly have inspired many of my 
colleagues, the Sunrise Movement, that have pushed for 
significant action to move the needle against climate change by 
pushing for the Green New Deal.
    At the end of the day, like many of my colleagues here, I 
am a parent. My wife and I have a 7-month-old daughter, 
Natalie. And as we think about the future that she is going to 
inherit--you know, so much of the work we do here in Congress I 
see through the prism of being a young father and making sure 
that she inherits a world that is perhaps better than the one 
that I inherited. And the good news again is that when my 
daughter is my age, you all will be the leaders running for 
office, serving in Congress, sitting in these chairs, making 
these decisions. And I have no doubt that, given that reality, 
we will truly make progress on this important issue.
    So, with that, I will ask a question of Ms. Zhang similar 
to the question Assistant Speaker Lujan mentioned.
    I was struck by your testimony, your written testimony, 
accounting your work helping out folks in the Flint water 
crisis in Michigan. And I am wondering if you could share with 
the committee how that experience changed the way you thought 
about the moral implications of how environmental justice 
issues impact communities and, in particular, communities of 
color.
    Ms. Zhang. Thank you for your question. I think that before 
the Flint water crisis happened, when I was in university, I 
was studying environmental issues, but studying them from an 
ecological perspective and caring about creation. But I did not 
realize that climate change was already impacting what Jesus 
calls the least of these, people who are being impacted. And 
not only in the Flint water crisis, but there is a zip code in 
my district, 48217, in Detroit, where people are living within 
10 miles of toxic pollution plants, and they are--60 percent of 
them are people of color, and most of them are in poverty.
    And I think of the, you know, recent EPA rollback of the 
MATS rule. And I think that 100 percent of their livelihoods 
are in danger because of this. And this happens often all over 
the country. And this is a deep issue of environmental justice 
very much so. And we care both about creation and about people, 
and this climate change issue affects both drastically.
    So thank you.
    Mr. Neguse. Thank you. Madam Chair, I yield back.
    Ms. Castor [presiding]. Thank you.
    Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair. I appreciate the 
opportunity to be recognized. And if I may, could I yield time 
to my colleague, Mr. Palmer?
    Ms. Castor. The gentleman is recognized.
    Mr. Palmer. I thank the gentleman.
    I want to ask unanimous consent to enter a couple of things 
into the record. One is the IPCC's climate change Physical 
Science Basis. And just want to point out that what they found 
in this report, there is no robust trends in annual numbers, 
tropical storms, hurricanes, major hurricanes accounts that 
have been identified over the last 100 years in the North 
Atlantic basin. A couple other points that I think will be 
relevant to some of the comments from my colleagues.
    And the other is from the Climate Science Special Report 
from the Fourth National Climate Assessment that says that the 
IPCC AR5, the annual report, fifth annual report, did not 
attribute changes in flooding to anthropomorphic influence, nor 
report the technical changes in flooding, magnitude, duration, 
or frequency. And would like unanimous consent to enter that 
into the record.
    And, with that, I yield back to the gentleman from Georgia.
    Mr. Huffman. And, Madam Chair, just for clarification, we 
are entering the entire reports into the record, right, not 
select schedules that may tell partial stories?
    Mr. Palmer. I am entering the pages from the annual report. 
If the gentleman would like to read the entire report.
    Mr. Huffman. I would just suggest we enter the whole 
report. I mean, I certainly wouldn't want any misleading 
partial sections. I wouldn't want Bob Barr redacting it. I 
would like to see the whole report.
    Mr. Palmer. Well, you certainly have the--you can object to 
unanimous consent, if you want to, or you can enter the entire 
report on your behalf, but I am entering those.
    Mr. Huffman. Either way. I will defer to my colleague, 
whichever way he wants to go. If he would like to enter the 
partial sections of the report, I would propose we additionally 
enter the entire report.
    Ms. Castor. So, without objection, we will accept Mr. 
Palmer's unanimous consent request and recognize--we will go 
ahead to Mr. Carter and then come back to Mr. Huffman.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Carter. Okay. Well, thank you.
    And reclaiming my time. First of all, let me thank all of 
you for being here. And I mean that sincerely. We appreciate 
your interest in this. This is encouraging to have all of you 
here and testifying on such an important subject. It is 
important. Climate change is real. Our climate has been 
changing since day one. And protecting our environment is real. 
We understand that. And that is what we want to do here.
    I am going to start with you, Ms. Cooper, and ask you, for 
a number of reasons, not the least of which is because I have a 
grandchild that lives right near Tulane, and I notice that is 
where you went to school. So obviously, very important to me. I 
just wanted to ask you: You are a recent college graduate, from 
what I understand?
    Ms. Cooper. Yes, sir, I am.
    Mr. Carter. And you graduated from Tulane?
    Ms. Cooper. Yes.
    Mr. Carter. I am just interested in knowing what spurred 
your interest in climate change? Was it your studies at the 
university or was it the impact that, perhaps, the climate has 
had in Louisiana? Or just what exactly was the impetus there?
    Ms. Cooper. So I have always been very interested in the 
outdoors. I grew up with two brothers, and our lives were 
digging holes and mud fights. And that kind of was my 
background. And then when Hurricane Katrina hit, I wasn't 
entirely sure of what the implications were, because I was at 
such a young age in just fourth or fifth grade. But just seeing 
how that affected my community and members around me I think 
has had a lasting impression on me far beyond that time when I 
was that age.
    And so when I went to Tulane University, I got invested in 
the Tulane Green Club and I got invested in the local 
nonprofit. And that really opened my eyes to the issues that we 
were facing in just that one city. And I knew that if New 
Orleans was having such strong implications of climate change, 
how much more our coast and then how much more our Nation and 
world aside from that.
    Mr. Carter. Well, certainly, New Orleans is an interesting 
situation. Thirty percent of all the wetlands combined with the 
offshore production, energy production that they have. So I 
think it is an interesting example, if you will, of what is 
happening out there and what we could be doing and what we are 
doing right, what we could do better.
    I just wanted to ask you about some of the work the 
governor's office has done to partner with the private sector 
and the energy companies to help improve our climate. Are you 
aware of anything like that?
    Ms. Cooper. So a lot of our partnership, as I mentioned 
before, a lot of our revenue comes from the offshore as well as 
onshore drilling endeavors in Louisiana. And I see this as a 
perfect partnership, because we cannot do the restoration at 
the scale we do without this.
    We have completed 111 projects already. We have 76 more on 
the way on our coast. And this could not be possible without 
utilizing the resources that are already there and knowing the 
impact that it is having on our area.
    Mr. Carter. Right. Okay. Well, thank you, Ms. Cooper.
    And thank all of you again for being here and for your 
input and for your participation. It is so encouraging to see 
youth participating in the process. And I want you to know how 
much we appreciate this.
    And thank you, Madam Chair. And I yield back.
    Ms. Castor. Thank you. I would like to recognize Mr. 
Huffman for----
    Mr. Huffman. Thanks, Madam Chair.
    I would just like to request unanimous consent to enter 
three reports in their entirety into the record. The first 
would be the entire IPCC report, including its very explicit 
conclusions about anthropomorphic climate change. The second 
would be the recent National Climate Assessment, the Fourth 
National Climate Assessment, including its conclusions, that by 
the end of the century, we are likely to experience literally 
hundreds of billions of dollars in economic damage per year if 
we don't make major changes. And finally, a March 28, 2019, 
report by the World Meteorological Organization, that also 
makes clear the impacts of anthropomorphic climate change, 
including the impacts of extreme weather.
    Ms. Castor. Without objection, those are entered into the 
record.
    [The information follows:]
                               __________
ATTACHMENT: Climate Change 2013: The Physical Science Basis. 
        Contribution of Working Group I to the Fifth Assessment Report 
        of the Intergovernmental Panel on Climate Change
          The report is retained in the committee files and available 
        at: https://www.ipcc.ch/site/assets/uploads/2018/02/
        WG1AR5_all_final.pdf
ATTACHMENT: Fourth National Climate Assessment
          The report is retained in the committee files and available 
        at: https://science2017.globalchange.gov/downloads/
        CSSR2017_FullReport.pdf
ATTACHMENT: WMO Statement on the State of the Global Climate in 2018
          The report is retained in the committee files and available 
        at: https://library.wmo.int/doc_num.php?explnum_id=5789

    Ms. Castor. I would also like to note I did have an 
opportunity to glance at Mr. Palmer's request here. And while 
it talks about the trends in the number of tropical storms, 
hurricanes, major hurricane counts, I can tell you, as a 
Floridian that has lived through the past few years, that, yes, 
the number may not be impacted, but the intensity, the size, 
the amount of moisture in the atmosphere when you are talking 
about flooding, those are at issue. And those are going to be 
some of the issues that we address here going forward.
    I want to thank you all for being here, for being the voice 
of this generation. We hear you. It is now our obligation, our 
moral responsibility to take action. That is the charge of this 
select committee. From this point forward, we will be focused 
on solutions. This will be a solutions-oriented committee. And 
that includes a just transition, creating the--making sure we 
are on track to create the clean energy jobs of the future.
    We need everyone's help, all Americans, to develop the 
patriotic solutions for this country, for our planet going 
forward. So thank you all.
    Mr. Ranking Member, did you have one?
    Mr. Graves. I do.
    Madam Chair, I ask unanimous consent that we include for 
the record a statement by Mr. Benji Backer, president of the 
ACC, in the record hearing.
    And just to ensure that nothing is left out in the lines of 
Mr. Huffman's wishes, I want to ask if you could insert the 
Encyclopedia Britannica, 2019 version, into the record as well.
    So that is my last request.
    [The information follows:]

     Statement for the Record by Mr. Benji Backer, President, ACC,

               Submitted by Ranking Member Garrett Graves

    ``To whom it may concern,
    When you examine the issue of climate change in this country, we 
are told that young liberals are invested and young conservatives don't 
care. However, as a college student and lifelong conservative political 
activist, I know firsthand this isn't true.
    In 2017, alongside my Millennial peers, I founded the American 
Conservation Coalition, an organization dedicated to conservative 
environmental solutions, including climate change. In just over a year 
since our founding, we've expanded to 120+ college campuses with 
enthusiastic conservative leaders representing us on each respective 
campus. Why have we succeeded? Because young conservatives are 
concerned about climate change--and it's a priority for them. Young 
conservatives feel left behind by the opposing party, as well as their 
own, on the issue of climate. They care about it and want to see 
solutions, but they first want the status quo to change. In fact, 59% 
of Millennial conservatives believe climate change is having an effect 
on the United States, according to last year's Pew poll. The percentage 
has been rising each year, and over 90% of independents and liberals 
see it as a problem as well. Additionally, recent polling shows that 
66% of all conservatives believe in man-made climate change.
    Young people, specifically young conservatives, are discouraged by 
the partisan bickering that the climate movement has embraced. 
Unnecessary partisan quarreling on climate change has alienated 
important voices and prevented meaningful results. Whether it's the 
Democratic Party proposing unrealistic resolutions such as the Green 
New Deal and perpetuating false doomsday scenarios, or the Republican 
Party's stagnant inaction and frequent use of climate denial language, 
both political parties have failed us on climate change thus far. To 
young people, the issue of climate change transcends party lines. Our 
environment is not a partisan issue, and it shouldn't be treated as 
such to promote political agendas. This is an issue that has massive 
implications for our children's futures, as well as our own.
    In terms of solutions, we urge Congress to explore policies that 
mitigate climate change without an increase in taxes and big 
government. Through a smart policy proposal that includes the right 
incentives, public-private partnerships, an all-of-the-above energy 
approach, and technological advancements, the United States can 
continue to take the lead on climate change.
    While other countries must act on climate change, and the United 
States has taken many steps in the right direction, I join my young 
conservative peers in calling for even greater action. We're tired of 
big-government and anti-economic policies that consistently fail. We're 
tired of the false alarmism and doomsday scenarios. We're also tired of 
conservative inaction and denial. We're ready for climate change to be 
a priority through bipartisan reforms that include important sources of 
energy (including nuclear, natural gas, and hydropower), technological 
advancements, smart market incentives, and corporate leadership. It's 
time for a new wave of climate action in this country that acknowledges 
and engages with a growing, improving economy to foster an improved 
climate.''

    Ms. Castor. Thank you.
    Thank you all for joining our kickoff hearing for the 
Select Committee on the Climate Crisis. We will look forward to 
seeing you at the next hearing.
    The committee is adjourned.
    [Whereupon, at 10:52 a.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
